<html>
<title> - LONG LINES, SHORT PATIENCE: THE TSA AIRPORT SCREENING EXPERIENCE</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]


    LONG LINES, SHORT PATIENCE: THE TSA AIRPORT SCREENING EXPERIENCE

=======================================================================

                                HEARING

                               before the

                     COMMITTEE ON HOMELAND SECURITY
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             SECOND SESSION

                               __________

                              MAY 25, 2016

                               __________

                           Serial No. 114-73

                               __________

       Printed for the use of the Committee on Homeland Security
                                     

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT] 

                                  

      Available via the World Wide Web: http://www.gpo.gov/fdsys/
                               __________


                       U.S. GOVERNMENT PUBLISHING OFFICE
23-245 PDF                   WASHINGTON : 2017                       
________________________________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="c9aeb9a689aabcbabda1aca5b9e7aaa6a4e7">[email&#160;protected]</a>  




                     COMMITTEE ON HOMELAND SECURITY

                   Michael T. McCaul, Texas, Chairman
Lamar Smith, Texas                   Bennie G. Thompson, Mississippi
Peter T. King, New York              Loretta Sanchez, California
Mike Rogers, Alabama                 Sheila Jackson Lee, Texas
Candice S. Miller, Michigan, Vice    James R. Langevin, Rhode Island
    Chair                            Brian Higgins, New York
Jeff Duncan, South Carolina          Cedric L. Richmond, Louisiana
Tom Marino, Pennsylvania             William R. Keating, Massachusetts
Lou Barletta, Pennsylvania           Donald M. Payne, Jr., New Jersey
Scott Perry, Pennsylvania            Filemon Vela, Texas
Curt Clawson, Florida                Bonnie Watson Coleman, New Jersey
John Katko, New York                 Kathleen M. Rice, New York
Will Hurd, Texas                     Norma J. Torres, California
Earl L. ``Buddy'' Carter, Georgia
Mark Walker, North Carolina
Barry Loudermilk, Georgia
Martha McSally, Arizona
John Ratcliffe, Texas
Daniel M. Donovan, Jr., New York
                   Brendan P. Shields, Staff Director
                    Joan V. O'Hara,  General Counsel
                    Michael S. Twinchek, Chief Clerk
                I. Lanier Avant, Minority Staff Director
                            
                            
                            C O N T E N T S

                              ----------                              
                                                                   Page

                               Statements

The Honorable Michael T. McCaul, a Representative in Congress 
  From the State of Texas, and Chairman, Committee on Homeland 
  Security:
  Oral Statement.................................................     1
  Prepared Statement.............................................     3
The Honorable Bennie G. Thompson, a Representative in Congress 
  From the State of Mississippi, and Ranking Member, Committee on 
  Homeland Security:
  Oral Statement.................................................     4
  Prepared Statement.............................................     6

                                Witness

Hon. Peter V. Neffenger, Administrator, Transportation Security 
  Administration, U.S. Department of Homeland Security...........     8

                             For the Record

The Honorable Bennie G. Thompson, a Representative in Congress 
  From the State of Mississippi, and Ranking Member, Committee on 
  Homeland Security:
  Letter.........................................................    46
The Honorable Martha McSally, a Representative in Congress From 
  the State of Arizona:
  Letter.........................................................    32

                                Appendix

Questions From Honorable Martha McSally for Peter V. Neffenger...    49

 
    LONG LINES, SHORT PATIENCE: THE TSA AIRPORT SCREENING EXPERIENCE

                              ----------                              


                        Wednesday, May 25, 2016

             U.S. House of Representatives,
                    Committee on Homeland Security,
                                                    Washington, DC.
    The committee met, pursuant to call, at 10:05 a.m., in Room 
311, Cannon House Office Building, Hon. Michael T. McCaul 
[Chairman of the committee] presiding.
    Present: Representatives McCaul, King, Rogers, Perry, 
Clawson, Katko, Hurd, Carter, Walker, McSally, Ratcliffe, 
Donovan, Thompson, Jackson Lee, Langevin, Richmond, Keating, 
Payne, Vela, Watson Coleman, Rice, and Torres.
    Chairman McCaul. The Committee on Homeland Security will 
come to order.
    Committee is meeting today to examine the security 
challenges brought forth by increased passenger screening, 
checkpoint wait times.
    But before I begin my opening statement, I would like to 
take a moment of silence for the victims and their families of 
EgyptAir 804.
    I now recognize myself for an opening statement.
    Today we face a crisis at our airports. We have all read 
the headlines--3-hour-long security lines, 430 American 
Airlines passengers stranded overnight in Chicago O'Hare, 
travelers from Atlanta, Charlotte, and Alaska waiting forever 
to be screened, causing missing flights and further delays.
    More than 3,000 bags have failed to get loaded onto planes 
in time to Phoenix. An 80 percent increase in wait times at JFK 
Airport compared to this time last year.
    This is unacceptable, and it is time for Congress to act.
    Administrator, the American people are angry and frustrated 
as we head into the busiest travel season of the year starting 
this Memorial Day weekend, and they deserve answers.
    This crisis didn't just come out of nowhere. Airports and 
airlines have been sounding the alarm for months. There is no 
doubt that part of the challenge we face is a high terror 
threat environment, but wait times are not soaring simply 
because security is much tighter. It is because the TSA 
bureaucracy has gotten weaker.
    The agency has struggled to keep up with the high demand 
and has been unable to put the right people at the right place 
at the right time. Change is not happening fast enough.
    Admiral Neffenger, I know you are working hard to reform 
TSA's broken bureaucracy, and today I hope to hear how you will 
confront this crisis swiftly.
    But Congress will not sit back as the situation gets worse, 
and that is why this committee and the House of Representatives 
passed legislation to fix this problem. I commend my colleague, 
Mr. Katko, for offering these bills.
    Among other measures, our legislation would accelerate 
TSA's PreCheck program, which helps reduce wait times by 
putting low-risk travelers through expedited screening. 
Unfortunately, the Senate has failed to pass these bills, which 
in my judgment is unconscionable.
    So today I would like to send my message to my colleagues 
in the other body--it is time to get moving, because the 
American people are fed up with this.
    This week we will introduce yet another bill to attack this 
problem, and I hope that this time we can get it to the 
President's desk more quickly.
    In the coming months, we will take a broader look at TSA, 
including first-ever authorization of the agency which will 
give us an opportunity to make wider reforms and long-term 
changes.
    Additionally, we plan to take up legislation to enhance 
TSA's Screening Partnership Program. But as I noted, we must 
also take into account serious aviation threats that we face. I 
think the events of the Egyptian airliner demonstrate that.
    Although investigators are still working to determine the 
cause of EgyptAir crash, one fact is clear: Terrorists are 
trying to bring down airplanes, and the aviation sector is 
their crown jewel target.
    This month I led a Congressional delegation to the Middle 
East and northern Africa to examine the spread of terrorist 
safe havens, and we walked away concerned that screening is 
inadequate at some of these last-point-of-departure airports 
that have direct flights into the United States.
    For instance, airports like Cairo lack full-body scanners 
to detect nonmetallic IEDs, and they lack access to 
comprehensive terror watch lists for screening their employees.
    This is a concern we know because militants are trying to 
recruit insiders and inside jobs to take down passenger jets.
    We have seen this twice in recent months, including an 
attack in Somalia and one against a Russian jet flying out of 
Sharm El Sheikh in Egypt.
    But this is not just a problem in the Middle East or 
northern Africa. Just this past December, Charles de Gaulle 
Airport in Paris, which has 50 direct flights into the United 
States every day, they fired 70 employees who were suspected of 
having extremist connections--70. We have to help our foreign 
partners weed out these extremists.
    Again, the House and this committee passed 2 bills to ramp 
up security at overseas airports and yet again these bills are 
sitting in the Senate stalling, waiting for action. It is 
unconscionable. It is time for the Senate to act. The President 
will sign them into law. We cannot afford further delay because 
American lives are at risk.
    As we adapt to the evolving threat, we must also make sure 
agencies like TSA adapt their business models to keep travel 
flowing smoothly. Terrorists would like nothing more than for 
us to undermine our own economy by allowing air transportation 
to grind to a halt.
    Admiral Neffenger, we have given TSA the resources it asked 
for to make screening more efficient. Congress even granted a 
recent request to reallocate $34 million to hire nearly 800 new 
TSA Officers before July and to pay for additional overtime for 
existing personnel.
    Today, we expect you to tell us how you are putting these 
resources to work and how you are going to address the crisis 
at our airports once and for all.
    I want to thank the admiral for being here today. I want to 
thank you for your service to our country.
    [The statement of Chairman McCaul follows:]
                  Statement of Chairman Michael McCaul
                              May 25, 2016
    Today we face a crisis at our airports. We've all read the 
headlines, and we know how bad it's gotten:
  <bullet> Three-hour-long security lines.
  <bullet> 450 American Airlines passengers stranded overnight in 
        Chicago O'Hare.
  <bullet> Travelers from Atlanta, Charlotte, and Alaska waiting 
        forever to be screened, causing missed flights and further 
        delays.
  <bullet> More than 3,000 bags fail to get loaded onto planes in time 
        in Phoenix.
  <bullet> An 80 percent increase in wait times at JFK airport compared 
        to this time last year.
    Administrator, the American people are angry and frustrated as we 
head into the busiest travel season of the year, starting this Memorial 
Day weekend. And they deserve answers.
    This crisis didn't just come out of nowhere. Airports and airlines 
have been sounding the alarm for months.
    There is no doubt that part of the challenge we face is a high 
terror threat environment. But wait times are not soaring simply 
because security is that much tighter. It's because the TSA bureaucracy 
has gotten weaker.
    The agency has struggled to keep up with high demand and has been 
unable to put the right people in the right place at the right time. 
Change is not happening fast enough.
    Admiral Neffenger, I know you are working to reform TSA's broken 
bureaucracy, and today I hope to hear how you will confront this crisis 
swiftly.
    But Congress will not sit back as the situation gets worse. That is 
why this committee and the House of Representatives passed legislation 
to fix the problem. I commend my colleague, Mr. Katko, for offering 
these bills.
    Among other measures, our legislation would accelerate TSA's 
PreCheck program, which helps reduce wait times by putting low-risk 
travelers through expedited screening.
    Unfortunately, the Senate has failed to pass these bills, which is 
unconscionable. So today I would like to send my message to my 
colleagues in the other body: It's time to get moving--because the 
American people are fed up.
    This week we will introduce yet another bill to attack the problem, 
and I hope this time we can get it to the President's desk more 
quickly.
    And in the coming months, we will take a broader look at TSA, 
including the first-ever reauthorization of the agency, which will give 
us an opportunity to make wider reforms and long-term changes.
    Additionally, we plan to take up legislation to enhance TSA's 
Screening Partnership Program.
    But as I noted, we must also take account of the serious aviation 
threats we face.
    Although investigators are still working to determine the cause of 
the EgyptAir crash, one fact is clear: Terrorists are trying to bring 
down airplanes, and the aviation sector is still their crown-jewel 
target.
    This month I led a Congressional delegation to the Middle East and 
North Africa to examine the spread of terror safe havens. And we walked 
away concerned that screening is inadequate at some airports which have 
direct flights to America.
    For instance, airports like Cairo lack full-body scanners to detect 
non-metallic IEDs, and they lack access to comprehensive terrorist 
watch lists for screening their employees.
    This is a concern because we know that militants are trying to 
recruit ``insiders'' to take down passenger jets. We've seen this twice 
in recent months, including an attack in Somalia and one against a 
Russian jet flying out of Sharm El Sheikh in Egypt.
    But this is not just a problem in the Middle East or North Africa. 
Just this past December, Charles De Gaulle airport in Paris--which has 
50 direct flights into the United States every day--fired 70 employees 
who were suspected of having extremist connections. Seventy employees.
    We have got to help our foreign partners weed out extremists. The 
House has passed 2 bills from this committee to ramp up security at 
overseas airports, and yet again, they are sitting in the Senate 
waiting for action. We cannot afford further delay.
    But as we adapt to the evolving threat, we must also make sure 
agencies like TSA adapt their business models to keep travel flowing 
smoothly. Terrorists would like nothing more than for us to undermine 
our own economy by allowing air transportation grind to a halt.
    Admiral Neffenger, we've given TSA the resources it asked for to 
make screening more efficient. Congress even granted a recent request 
to reallocate $34 million to hire nearly 800 new TSA officers before 
July and to pay for additional overtime for existing personnel.
    Today, we expect you tell us how you are putting these resources to 
work--and how you are going to address the crisis at our airports once 
and for all.
    Thank you.

    Chairman McCaul. With that, the Chair now recognizes the 
Ranking Member of the committee.
    Mr. Thompson. Thank you, Mr. Chairman. I would like to 
thank you for calling today's hearing.
    I would also like to welcome Administrator Neffenger and 
thank him in advance for his testimony.
    To be clear, the flying public expects and deserves 
efficient, safe, secure, reliable air transit. The 
Transportation Security Administration finds itself at the 
center of the Federal Government's effort to ensure secure 
passage of passenger and cargo. As you know, Mr. Administrator, 
the importance of this role can hardly be understated.
    The agency is at a critical point in its short history. TSA 
is still implementing reforms after covert testing last year 
revealed serious gaps in security screening. Now, long lines 
and record wait times at airport checkpoints are having 
spillover effects throughout our entire aviation system.
    Passengers are understandably anxious as they hear stories 
about fellow passengers who despite their best efforts missed 
flights. Asking passengers to arrive 3 hours before a domestic 
departure is unacceptable.
    In addition to the stress on passengers to wear the right 
clothes, decide whether to check a bag, pay exorbitant baggage 
fees, avoid packing prohibited items, and make tight 
connections, the stress on the flying public is felt most 
severely by airline and airport personnel. Unfortunately, it is 
the men and women who are the face of TSA who get blamed, the 
Transportation Security Officers.
    Travel volume substantially increased this year. Yet, TSA 
has failed to keep pace with this growth. As a result, there is 
an insufficient number of Transportation Security Officers in 
our Nation's airports. The current situation where we have too 
few screeners and far more passengers did not occur without 
warning.
    In fiscal year 2011, there were approximately 45,000 TSOs 
screening 642 million passengers. In fiscal year 2016, TSA had 
3,000 fewer TSOs screening roughly 740 million anticipated 
passengers, almost 100 million more passengers and 3,000 fewer 
screeners. In the fiscal year 2017 budget, TSA requested 
funding to hire an additional 320 TSOs.
    To those of us who are familiar with travel volume trends, 
this did not seem like enough. More recently, TSA, as the 
Chairman indicated, has announced its plan to on-board 768 TSOs 
by June 15. Increasing staffing resources is certainly a good 
thing, but only if the proper vetting and training occur before 
more TSOs are added.
    Administrator Neffenger, I want to know if TSA has the 
money necessary to achieve its mission. At Secretary Johnson's 
request, Congress recently reprogrammed $34 million in TSA 
accounts to pay for overtime and other costs associated with 
responding to the wait-time crisis. While these funds will 
surely aid TSA in addressing staffing shortages in the short 
term, moving money around is not a substitute for infusing new 
money into an operation.
    TSA should have access to all of the aviation security fees 
collected by the flying public to bolster security. Yet, the 
passage of the Budget Act of 2013, TSA is required to divert 
$13 billion collected in security fees toward the deficit 
reduction for the next 10 years. This year alone, $1.25 billion 
has been diverted.
    Presently, I am working with Representative Peter DeFazio, 
the Ranking Member on the Transportation Committee, in his 
efforts to ensure that TSA can retain the fees it collects and 
put them back into our aviation system. In the absence of more 
money, new resources is absolutely important. Congress and TSA 
must resist Band-Aid fixes to complicated and--security 
challenges. Patching and plugging holes is not the answer.
    Moreover, dismantling TSA is not the answer. Many of my 
colleagues on the other side of the aisle are calling for a 
return to the pre-9/11 privatization model. Mr. Chairman, as 
you have indicated also, after the downed Egyptian airliner, 
which is still under investigation, this would not be the way 
to go.
    As one prominent airport commissioner recently 
acknowledged, the benefits of privatization are very marginal 
and there is a huge cost in time associated with the 
transition. We need to look for long-term solutions. One 
solution, as I have indicated and have written a letter to you, 
Mr. Administrator, is to assign the nearly 2,500 TSOs 
designated as Behavior Detection Officers to checkpoint 
screening operations.
    As you know, the SPOT program has been subject to a GAO 
review. It is questionable about its success. But we have spent 
$1 billion on this program, and we could put that money to good 
use.
    So I look forward, Mr. Neffenger. Look around the committee 
room here, all our Members use the airports to come to work 
every week. I am sure, like I, they are anxiously awaiting your 
testimony.
    I yield back.
    [The statement of Ranking Member Thompson follows:]
             Statement of Ranking Member Bennie G. Thompson
                              May 25, 2016
    To be clear, the flying public expects and deserves efficient, 
safe, secure, reliable air transit. The Transportation Security 
Administration finds itself at the center of the Federal Government's 
efforts to ensure secure passage of passengers and cargo. As you know, 
the importance of this role can hardly be understated.
    The agency is at a critical point in its short history. TSA is 
still implementing reforms after covert testing last year revealed 
serious gaps in security screening. Now, long lines and record wait 
times at airport checkpoints are having spillover effects throughout 
our entire aviation system.
    Passengers are understandably anxious, as they hear stories about 
fellow passengers who, despite their best efforts, missed flights. 
Asking passengers to arrive 3 hours before a domestic departure is 
unacceptable.
    In addition to the stress on passengers to wear the right clothes, 
decide whether to check a bag, pay exorbitant baggage fees, avoid 
packing prohibited items, and make tight connections, the stress on the 
flying public is felt most severely by airline and airport personnel. 
Unfortunately, it is the men and women who are the ``face of TSA'' who 
get blamed--the Transportation Security Officers.
    Travel volume substantially increased this year, yet TSA has failed 
to keep pace with this growth. As a result, there is an insufficient 
number of Transportation Security Officers in our Nation's airports. 
The current situation where we have too few screeners and far more 
passengers did not occur without warning. In fiscal year 2011, there 
were approximately 45,000 TSOs screening 642 million passengers. In 
fiscal year 2016, TSA has about 3,000 fewer TSOs screening the roughly 
740 million anticipated passengers. In its fiscal year 2017 budget, TSA 
requested funding to hire an additional 323 TSOs.
    To those of us who are familiar with travel volume trends, this did 
not seem like enough. More recently, TSA announced its plans to on-
board 768 TSOs by June 15. Increasing staffing resources is certainly a 
good thing--but only if the proper vetting and training occur before 
more TSOs are added.
    Administrator Neffenger, I want to know if TSA has the money 
necessary to achieve its mission. At Secretary Johnson's request, 
Congress recently reprogrammed $34 million in TSA accounts to pay for 
overtime and other costs associated with responding to the wait times 
crisis.
    While these funds will surely aid TSA in addressing staffing 
shortages in the short term, moving money around is not a substitute 
for infusing new money into an operation. TSA should have access to all 
of the aviation security fees collected from the flying public to 
bolster security.
    Yet, with the passage of the Budget Act of 2013, TSA is required to 
divert $13 billion collected in security fees towards deficit reduction 
for 10 years. This year alone, $1.25 billion has been diverted. 
Presently, I am working with Representative Peter DeFazio, the Ranking 
Member on the Transportation Committee, in his effort to ensure that 
TSA can retain the fees it collects and put it back into our aviation 
security system.
    In the absence of more, new resources, temporary fixes may be all 
that TSA can offer to address a challenge that will only intensify as 
the United States experiences more economic growth and more Americans 
travel via commercial aviation. Congress and TSA must resist Band-Aid 
fixes to complicated and well-understood aviation security challenges. 
Patching and plugging holes are not answers.
    Moreover, dismantling TSA is not the answer. Many of my colleagues 
on the other side of the aisle are calling for a return to the pre-9/11 
privatization model.
    Mr. Chairman, after the downed Egyptian Airliner, which is still 
under investigation, and after your observations as you recently 
traveled abroad, you should know that any facet of aviation security 
that mirrors a pre-9/11 state should be reconsidered.
    Furthermore, it is nonsensical to believe that reducing TSA's role 
would solve immediate problems. The amount of time and resources that 
it takes for an airport to transition would likely cause more havoc, 
delays, and frustrations for passengers. As one prominent airport 
commissioner recently acknowledged, the benefits of privatization are 
``very marginal and there's a huge cost in time associated with the 
transition.''
    We need to look for long-term solutions. One solution that could be 
implemented at little or no additional cost would be to assign the 
nearly 2,500 TSOs designated as Behavior Detection Officers to 
checkpoint screening operations. Alarmingly, while the number of TSOs 
has declined, TSA has spent close to a billion dollars on the Screening 
Passengers by Observation Techniques (SPOT) Program, a behavioral 
detection program that GAO has repeatedly said lacks scientific 
validation as an effective security program.
    The program is known more for racial and ethnic profiling than 
detecting terrorist activity. The numbers prove this. Administrator 
Neffenger, I have written to you asking your strong consideration of 
reallocating Behavior Detection Officers to perform traditional 
screening functions within the current TSA Staffing Model. I would like 
to hear from you regarding my proposal.
    Finally, I would caution you, Administrator Neffenger, to not lose 
sight of the need to enhance TSO training so that front-line workers 
can better balance security effectiveness and line efficiency. I 
commend your actions in the wake of last year's findings regarding 
deficiencies in the security screening process by standing up the TSA 
Academy program and ordering more training for TSOs.
    TSA must also focus its attention on acquiring technologies of the 
future. We must make the investments now to ensure that the technology 
at our checkpoints achieves maximum effectiveness, thereby increasing 
efficiency.
    We all have a vested interest in getting TSA on the right track. We 
travel weekly, our families and constituents are members of the 
traveling public. While we are pressing for solutions, we must ensure 
that they do not come at the expense of our security.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Chairman McCaul. I thank the Ranking Member.
    Other Members are reminded that opening statements may be 
submitted for the record.
    We are pleased to have here today Admiral Neffenger on this 
very important and timely topic. Admiral Peter Neffenger serves 
as the sixth administrator of the Transportation Security 
Administration, where he leads security operations at more than 
450 airports within the United States and a workforce of almost 
60,000 employees.
    Prior to joining TSA, Admiral Neffenger served as the 29th 
vice commandant of the United States Coast Guard and the Coast 
Guard's deputy commandant for operations.
    We thank you, sir, for being here today, and we also thank 
you for your service. Your full written statement will be 
appear in the record. The Chair now recognizes Admiral 
Neffenger.

     STATEMENT OF HON. PETER V. NEFFENGER, ADMINISTRATOR, 
  TRANSPORTATION SECURITY ADMINISTRATION, U.S. DEPARTMENT OF 
                       HOMELAND SECURITY

    Admiral Neffenger. Thank you and good morning, Chairman 
McCaul, Ranking Member Thompson, distinguished Members of the 
committee. Thank you for the opportunity to appear before you 
today. I sincerely appreciate the committee's oversight of 
TSA's security operations, ensuring that our agency has the 
appropriate resources to accomplish its important 
counterterrorism mission.
    Since taking the oath of office on July 4 of last year, I 
have traveled throughout the country and around the world to 
meet with employees at all levels of our agency, and they are 
truly impressive. Their patriotism, their sense of duty and 
their commitment to TSA's National security mission is 
exemplary.
    But to ensure their success, we need a mature enterprise 
that delivers the tools they need to get the job done and 
unwavering support from their leaders.
    Last week, EgyptAir Flight 804 crashed into the 
Mediterranean, and I wanted to express my sincere condolences 
to the families of the victims. It was a tragic loss of life. 
While we don't yet know what happened to that airplane, it is a 
stark reminder of the importance of TSA's daily mission.
    First and foremost, our job is to protect the traveling 
public in what has become a very dynamic and challenging threat 
environment. The threat is very real. To that end, and in just 
10 months, I have undertaken a systemic and deliberate 
transformation of TSA.
    I set a renewed focus on security, revised alarm resolution 
procedures, made investments in new technology and have 
retrained the entire workforce. We are holding ourselves 
accountable to high standards of performance, and I am 
supporting our front-line officers in their critical mission.
    We have reinvigorated our partnerships with the airlines, 
with airport operators and the trade and travel industries, and 
are working closely with Congress and this committee to address 
our security mission.
    I am investing in our people. With the help of Congress, I 
directed a complete overhaul of our approach to how we train 
our workforce at all levels of the agency. We established the 
first ever TSA academy on January 1 of this year. This 
intensive training will enable us to achieve consistency, 
develop a common culture, instill our core values and raise 
performance across the entire workforce.
    I also ordered a review of all personnel policies and 
practices. This has led to a number of significant changes--
elimination of the arbitrary use of directed reassignments, 
restrictions on permanent change of station relocation costs, 
and significant controls on bonuses at all levels.
    We are overhauling management practices, conducting an 
independent review of acquisition programs, building a 
planning, programming, budgeting and execution process, and 
building a human capital management system to address 
recruitment, development, promotion, assignment, and retention.
    The screening mission requires a similar fundamental 
reassessment. This year, we project our checkpoints Nation-wide 
will screen some 740 million people. By comparison, in 2013, 
TSA screened 643 million people. That is an increase of 100 
million people in just 4 years, while our full-time workforce 
has reduced by more than 12 percent.
    That and our renewed focus on security, are significant 
contributors to the situation we face today. So we have a 
challenge this summer, which we are aggressively meeting head 
on. Among other things, we have established a National Incident 
Command Center to specifically monitor checkpoint screening 
operations on an hourly basis.
    We are tracking projected volume, staffing, and lane 
availability, actual wait times, which will allow us to address 
critical concerns in real time. This command center includes 
staffing from airlines and critical industry associations, and 
they are conducting daily calls with the busiest airports and 
major airlines to plan that day's operations in what we foresee 
in the coming days.
    Our goals are to ensure effective screening and to maximize 
our screening capacity to achieve shorter line waits.
    Additionally, we are providing more overtime and 768 new 
TSA Officers. We are also converting, with the help of Congress 
and the reprogramming request, our front-line officers from 
part-time to full-time, as necessary, to increase--immediately 
increase screening capacity and help improve retention and 
morale. I thank you for supporting these efforts.
    I have given Federal security directors the flexibility to 
redeploy Behavior Detection Officers to perform additional 
screening functions, and they have done so and they have pushed 
the Behavioral Detection Officers back into the screening 
checkpoints.
    We have deployed additional canine teams and activated our 
National volunteer deployment force to be available to move to 
areas of greatest need.
    Finally, we are now seeing enrollments in TSA PreCheck that 
are averaging more than 15,000 new enrollments a day. That is 
more than almost 3 times what we saw last year at this time.
    To intensify our agency-wide focus on mission 
effectiveness, I have brought in new staff from outside the 
agency. I have a new deputy administrator, a new chief of 
staff, a new chief of operations, a new head of intelligence, 
and other key positions.
    I have also directed several leadership and operational 
changes at the National, regional, and airport levels.
    At Chicago O'Hare, a new leadership team is now overseeing 
screening operations, and with the support and hard work of the 
talented workforce at O'Hare, immediate adjustments, in 
addition to some infusion from the reprogramming have 
dramatically improved passenger through-put, even as volume has 
increased beyond 90,000 passengers each day.
    I have directed a fundamental review of the staffing 
structure of our screening operations. We must match 
operational capacity to the demands of projected and real 
screening volume, and we are continuing to work closely with 
the Department and to Congress to adjust our appropriations to 
allow us to match resources with mission demands.
    Finally, in aggressively pursuing long-term solutions to 
the growing volume of airline travel, we established an 
innovation task force earlier this year to explore and develop 
new approaches to airport security.
    One example is a public-private partnership in Atlanta, 
where the first 2 automated lanes became operational this week. 
Now, they are already vastly improving screening effectiveness 
and efficiency, and we look forward to the results of the first 
couple weeks of that operation.
    We have similar projects envisioned for other major airport 
hubs across the country. The airlines and airports have been 
huge partners in these efforts. Clearly, this summer travel 
season is going to be busy, and in the short-term, TSA, 
airlines, airports, Congress and travelers working together can 
improve the passenger experience, while we maintain security 
that we need.
    TSA is dedicated to ensuring better efficiency, while 
remaining acutely focused on our counterterrorism mission. We 
cannot and we will not compromise on the security of the 
traveling public.
    My guiding principles, which I expressed in my 
administrator's intent, are focus on mission, invest in people, 
and commit to excellence. We are pursuing these objectives 
every day. As administrator, I will continue to do so until we 
achieve and sustain success in every aspect of this agency, in 
every mission, in every office, in every location where we 
operate, and with every single employee.
    Mr. Chairman, thank you for the opportunity to appear 
before you today and for the committee's support, and I look 
forward to your questions.
    Chairman McCaul. Thank you, Admiral. I now recognize myself 
for questions.
    Let me just say first, that all Americans experienced the 
horror on 9/11 of airplanes being turned into cruise missiles 
and turned against us, bringing down the World Trade Center, 
hitting the Pentagon and attempting to hit this building.
    It still remains the crown jewel of aviation. We know that 
al-Qaeda in the Arabian Peninsula is still intent on this. We 
know that ISIS in the Sinai was able to pull off Sharm El 
Sheikh, the downing of a Russian airliner.
    As I mentioned in my opening remarks, I recently had the 
experience to go to Northern Sinai where ISIS exists. I also 
looked at the Cairo Airport, which has a daily flight into JFK 
airport. I have to say, I am concerned about the state of 
security there.
    I am also concerned with the state of security at Charles 
De Gaulle, where 70 extremists were weeded out of the process, 
and we have 50 flights per day flying into the United States.
    This is the external operation that keeps me up at night.
    Can you tell me, sir, what TSA is doing to protect these 
last-point-of-departure airports, particularly in these high-
threat areas?
    Admiral Neffenger. Yes, sir. Thank you, Mr. Chairman. Like 
you, I am very focused on the safety of inbound flights to the 
United States.
    So we look at--there are a number of things we do for last-
point-of-departure airports. First and foremost is working 
through the international community to continually try to raise 
global standards to the highest possible level.
    In addition, with respect to last-point-of-departure 
airports, we have put additional standards and requirements in 
place for any aircraft that intends to fly directly to the 
United States without any intermediate stops.
    That includes screening of passengers, screening of cargo, 
screening of the aircraft itself, as well as vetting of any 
individuals that are on-board those flights coming to the 
United States.
    In addition to that, following the Metrojet incident, we 
put a number of additional security measures in place at 
certain airports of interest and concern in the region, that 
have added significant additional requirements to aircraft and 
personnel intending to fly directly to the United States from 
those LPDs.
    Chairman McCaul. Well, again, this legislation I mentioned 
that is sitting in the Senate that has not passed would help 
you and give you authorities to assist these airports overseas 
with flights coming directly into the United States, and yet, 
it has been stalled.
    You know, when I didn't see full-body scanners in Cairo, 
that concerns me because of the non-metallic IED threat. Now, 
this can be fixed, and we can't even share proper intelligence 
with the Egyptians at that airport to properly vet their own 
employees and screen passengers.
    I worry about this, sir, and I hope that I can work with 
you to expedite this process. I have met with the Egyptians, 
the President, and the ambassador, I am working with them. I 
think they are working in good faith with the United States to 
ensure the safety of Americans as well.
    With respect to the lines, in the President's budget 
request, there is a request for an additional 350 screeners. 
However, 2 weeks ago, TSA came back to the Congress and asked 
to have $34 million reprogrammed, and we granted that request 
for 768 TSOs, which will come on-line, I think, by the end of 
June, I hope, or early July. But this was really not our first 
rodeo. Why didn't we see this coming?
    Admiral Neffenger. That is a good question, and as you 
know, when I came on-board last year on the heels of the 
Inspector General's results, it was immediately apparent to me 
that one of the challenges we were going to have is enough 
screening staff to man the checkpoints effectively.
    As you recall, we stopped a practice known as managed 
inclusion, which was the practice of randomly assigning people 
out of the standard lanes, unvetted individuals, just randomly 
assigned to the PreCheck lane.
    One of the discoveries out of our root cause analysis in 
working with the Inspector General was that introduced 
unacceptable risk into the system. In doing that, I knew that 
that would dramatically increase the number of people back in 
the standard lanes, and we weren't staffed to the level we 
needed to man all the lanes possible.
    So, I came to Congress, and Congress was very gracious in 
granting a request to halt any further reductions. We had 
planned to drop another 1,600 people in fiscal year 2016. Then 
when we got the appropriations bill in December, we immediately 
began to do accelerated hiring.
    The additional 768 is on top of what we have requested for 
fiscal year 2017 and, in my opinion, is necessary to meet the 
near-term challenge of the increased volume this summer and 
then moving forward.
    So, we have been working very aggressively to move that, 
but as you know, there is a lag associated with getting the 
funding and then getting it hired, the----
    Chairman McCaul. I agree with that, but you have a lot of 
part-time employees on staff.
    Admiral Neffenger. We do.
    Chairman McCaul. Do you intend to make a second request to 
reprogram monies that have already been appropriated to TSA to 
move part-time employees to full-time?
    Admiral Neffenger. Well, I think it is important that we 
move more part-timers to full time because it drops my 
attrition rate dramatically and it is instant capability that I 
can put to use. We are working through the administration now 
on whether there is a need for a second reprogramming request. 
And----
    Chairman McCaul. Well, I think about 20 percent of your 
employees are part-time. In my judgment, they are already 
trained to do the job. It seems to me that would cause, 
overnight would ramp up your personnel force to deal with the 
long lines. We know we anticipate those going into the summer 
season.
    As I mentioned earlier, we plan to introduce legislation. 
We met with over 30 airline representatives. They expressed 
concerns that there was not the proper coordination at the 
local level with the field security directors at TSA, that they 
didn't have flexibility, that the staffing model didn't reflect 
the peak time that the flights were coming in.
    In large part, this would solve a lot of these staffing 
problems if there was better communication at the local level 
and these local directors were empowered to make decisions 
based on what is happening at the local airports. Do you agree 
with that?
    Admiral Neffenger. I absolutely agree with that. In fact, 
one of the first things I did last fall when I brought all my 
Federal security directors together for the first time is to 
direct them to take responsibility for their local region. I 
have given them full authority. I like institutionalizing ideas 
like that so that they stay, because I think that is an 
important way to go forward----
    Chairman McCaul. That is what this legislation would do. It 
would require TSA to basically assess its staffing allocation 
model and also mandate that they get local input from the 
airlines and the airports. Would you agree with that?
    Admiral Neffenger. Absolutely. In fact, that is what we are 
doing right now and I would like to make that a permanent 
practice at TSA.
    Chairman McCaul. Another element of the bill is the TSA's 
Behavioral Detection Officers who roam around the airport. 
There are about 3,000 of them. If they can be redeployed to the 
front screening end process, to me that would help solve a lot 
of these problems. I think the Ranking Member mentioned this in 
his opening statement. Do you agree that that would be an 
appropriate response?
    Admiral Neffenger. Well, we are redeploying the Behavioral 
Detection Officers now. I think it is important to also note 
that behavioral detection is still an important element, but it 
is how you use it effectively, I think, that matters.
    So, I can use those officers directly at things like 
document-checking positions, to serve as divest officers, 
places where they can still monitor and look at behavior, but 
at the same time, directly contribute to the efficiency of the 
checkpoint.
    Chairman McCaul. Finally, do you support the concept of 
expanding TSA's PreCheck program, which I think would move a 
lot of people in the long lines into the PreCheck lines, which 
I think would solve many of these problems as well.
    Admiral Neffenger. Absolutely. In fact, that is one of my 
fundamental priorities is to dramatically expand the PreCheck 
population and dramatically expand the capability to enroll 
people in PreCheck.
    Chairman McCaul. Sir, I know they are putting a lot of 
blame on you for this crisis, but we passed a bill out of this 
committee to expand the TSA PreCheck program, which would have 
helped this situation, and yet it is sitting there in the 
Senate, stalled in the Senate.
    They could have helped this problem months ago, and it is 
unconscionable that the Senate hasn't acted on this. I call 
upon the Senate. Sometimes they don't listen to us in the 
House. But for the sake of the American people, it is time for 
the Senate to act on this important legislation.
    With that, I now recognize the Ranking Member.
    Mr. Thompson. Thank you, Mr. Chairman. Cedric, put the 
chart up. I have a chart that kind of crystallizes what I think 
is the challenge that TSA is faced with.
    In fiscal year 2011, we had 45,000 TSOs, 642 million 
passengers; fiscal year 2016, we have 740 million passengers 
and only 42,500 TSOs.
    I guess the question that comes to mind, what do you think 
the number of TSOs you need to address the problem we are faced 
with now?
    Admiral Neffenger. Well, thank you for the question. I do 
think that we are at a lower staffing level than we need to be 
to meet peak demands at peak periods, and we are working the 
staffing models now aggressively with the airlines to determine 
the right number. We are also looking to see what kinds of 
efficiencies we can gain in just the way we deploy people.
    So we found in Chicago, for instance, that we converted 100 
part-timers to full time. That is an instant gain of a 
workforce. We are using overtime hours to effectively convert 
additional part-timers to full time. We added--we are adding a 
total of 250 officers over the summer, 58 right now.
    That in conjunction with some operational adjustments we 
have made have dramatically improved the situation in Chicago.
    So we--I think that--I don't have an exact number for you 
right now because we are reworking our staffing models 
completely to look at the way in which the airlines do it, but 
I do know that we need a higher staffing level than we 
currently have.
    Mr. Thompson. I look forward to you coming up with the 
number. Do you have, presently, the resources to address the 
problems of wait time and other things presently within your 
budget?
    Admiral Neffenger. The reprogramming request has helped 
considerably, because it has allowed me to immediately put 
resources. Right now, the most effective approach is to get 
part-time to full-time, so that I can get trained people 
working longer hours who want to work longer hours, who would 
like to be full-time.
    That reduces my attrition rate, so it increases my ability 
to avoid churn. Then it allows me to redeploy some of my canine 
teams to the airports of highest need.
    That addresses the problem in the top airports, but I don't 
want to see the problem cascade across the system, which is why 
we are looking at the potential for whether a second 
reprogramming request is needed to hire additional.
    Mr. Thompson. Thank you. Some people are saying that the 
wait time has increased substantially after the airlines 
implemented baggage fees, and that people, rather than paying 
the fees, are taking their additional baggage onto the planes 
to avoid the cost.
    Therefore, the wait time getting to the plane increases 
because of the increase in baggage. Have you all looked at that 
as an issue?
    Admiral Neffenger. Well, I will tell you, we see about 4 
times the number of baggage coming to the checkpoint than get 
checked. Volume at the checkpoint, you know, the volume of 
carry-on bags is--puts a lot of pressure on checkpoint 
operations.
    So we have been working aggressively with the airlines to 
first enforce the 1+1 rule. We think that is very important, 
because if you bring 4 things through the checkpoint, a couple 
of those things are probably going to get gate-checked, anyhow.
    Mr. Thompson. Well, you know, I think one thing we ought to 
look at as a committee, the airlines are making several billion 
dollars annually off those fees. If that has contributed to the 
wait times and additional things, I think we ought to look and 
see if they can make a contribution toward this effort to 
alleviate the wait times. I think that is a reasonable thing 
for us to look at, and I look forward to this committee looking 
at that as a possibility.
    I was glad to hear your analysis of the BDOs. There has 
been a lot of comment and criticism, quite frankly, about their 
use. So now if they are being deployed to address this crisis, 
I compliment you on doing that.
    With this wait-time issue where we are, can you tell me 
what the airlines are doing to help address this problem as far 
as TSA is concerned?
    Admiral Neffenger. Yes, I have been very pleased with the--
with what the airlines have been aggressively doing lately. So, 
quite a few of the airlines have been hiring contract staff to 
take nonsecurity duties, everything from sitting at the exit 
lanes--that frees up a TSO to get back on a checkpoint; 
providing people to run the bins from one end of the line back 
to the beginning of the line.
    Doing what is called divest officer duties. That is the 
individual who reminds people to take off their shoes and their 
belt and so forth. It turns out that is a pretty important 
position because a lot of people forget to do it and that can 
slow things down if you don't have--if you are not prepared by 
the time you get there.
    So that has been very helpful. They are also providing 
people out in front of the checkpoints to direct people to 
other checkpoints. What we find is that oftentimes, you will 
have, particularly in airports where you have limited, you 
know, limited physical space in which to operate, you have 
multiple small checkpoints that you can't see from one to the 
other. Sometimes you will get a big line in one and they will 
be nobody in the next.
    But human psychology is such that once you are in a line, 
you don't want to leave that line to go to another one because 
you might be--you might find yourself in a longer one. So 
catching them before they get in line is important.
    Finally, the other thing they are helping us do with the 
huge increase in enrollments that we have seen in PreCheck, we 
have a lot of people who still walk into a standard line not 
recognizing that that is not going to be an automatic PreCheck 
lane. So you have got to scrub the standard lines to pull 
people out. As many as 15 percent of the daily passengers we 
are finding are walking into a standard lane by mistake and you 
have got to get them out of there.
    So the airlines have been very helpful in that respect.
    Mr. Thompson. Thank you.
    I yield back, Mr. Chair.
    Chairman McCaul. I thank the Ranking Member.
    The Chair recognizes Mr. King, from New York.
    Mr. King. Thank you, Mr. Chairman.
    Thank you, Admiral, for your testimony here today and for 
your service.
    In New York, my understanding is that at JFK Airport, there 
is an 82 percent increase in the maximum time between 2015 to 
2016. Whether that is 82 or 72, it is still extraordinarily 
high.
    Can you quantify what impact you expect from the additional 
new officers you are going to be sending there? In other words, 
will that 82 become 72, 52? Is there any way you can make the 
equivalency between the additions and subtractions?
    Admiral Neffenger. Yes, I don't know if I can put a 
percentage on it right now for you. But I can tell you we are 
already seeing a dramatic improvement at JFK. For example, 
yesterday the maximum line-wait we saw, and it was just a 
spike--was 39 minutes in a standard lane. The maximum time we 
saw in a PreCheck lane was 5 minutes.
    So we are already seeing a dramatic improvement there. We 
have watched that very carefully. We want to make sure that we 
see that every day. You had a very high volume coming through 
at JFK yesterday.
    Mr. King. Is that because of increased personnel or because 
you changed your methods?
    Admiral Neffenger. It is a combination of changing in some 
operational procedures, so using the personnel more 
effectively. One of the things that this National incident 
approach, this National approach to it allows us to do is 
rapidly move good ideas around the system.
    It is also the combination of some new personnel coming in, 
shifting some dog teams there. Dog teams help considerably in 
terms of moving passengers.
    Mr. King. Again, if we can try to quantify. Your original 
goal was 25 million for PreCheck.
    Admiral Neffenger. Right.
    Mr. King. There are 9 or 10 right now.
    If you got to 25, what impact would that have?
    Admiral Neffenger. Well, I think it could dramatically 
transform the system because then you would have many, many 
lanes open. That would represent roughly 50 percent of the 
daily traveling volume if you got to 25 million people. You 
could keep many more lanes open in PreCheck. You could run the 
dogs more effectively in the locations where you still had high 
volume, but it would be on a smaller crowd of people.
    So if we can continue to grow that population, I think that 
is the way. The other thing it does for me is it gives me a 
trusted--a known population. That is much more important, 
particularly in today's world.
    Mr. King. The Chairman mentioned Egypt Airlines, and maybe 
this is slightly off-topic, but he also mentioned the insider 
threat. Can you just say what you are doing on that? I know 
last year there was the IG report. It just so happens, the 
Chairman mentioned Charles de Gaulle Airport where they had to 
get rid of 85 personnel.
    We have almost a million people behind the scenes that are 
insiders. How effective is our vetting process for them?
    Admiral Neffenger. Well, I think it is far more effective 
this year than it was even last year. So we have--we screen. We 
have always screened everybody. There are about--as you said, 
just under a million people who hold badged access of some type 
to an airport. It is not universal badged access and there are 
varying levels of access.
    Each one of those individuals is continuously vetted 
against the terrorist screening database. Since the--since 
December of this year, we now have full access to the so-called 
TIDE categories. This is the extended database of interest that 
doesn't necessarily indicate that you are connected to a known 
or suspected terrorist, but there may be indicators. We now do 
recurrent vetting against that as well.
    We are piloting a project with Delta Airlines in 2 large 
airports to do now recurrent vetting against criminal 
databases, the so-called FBI Rap Pack program. The current 
requirement is every 2 years. I want that to be recurrent as 
well. Assuming that goes well, then we will implement that 
full-time by the end of the calendar year and that will be 
continuous vetting against the criminal databases as well.
    Mr. King. So are there training procedures in place for 
cooperation between the TSA personnel and the armed police at 
the airports? Because TSA obviously is not armed. They can't 
make arrests. If they do spot something, how quick is the time 
response with the police officers?
    Admiral Neffenger. Well, it can vary by airport, but it 
is--but we have got duress alarms at every checkpoint on every 
single lane of every checkpoint in the Nation. We completed the 
installation of those just before the end of the calendar year. 
We train every day with police departments.
    In fact, I just met with the Association of Law Enforcement 
Officers at their annual conference and we--and one of the 
topics was a discussion for consistent training across. It is 
everything from active-shooter training to response to 
emergencies, to clearing contraband items that are discovered 
at the checkpoint.
    But I think we have a very good relationship, particularly 
in the largest airports where the potential for greatest 
concern can be.
    Mr. King. When you have nothing else to do, if you would do 
me a favor and just check out what the relationship is between 
TSA and the Port Authority police of New York and New Jersey.
    Admiral Neffenger. Yes, sir, I will.
    Mr. King. Thank you very much.
    I yield back.
    Chairman McCaul. The Chair recognizes Ms. Sheila Jackson 
Lee.
    Ms. Jackson Lee. I thank the Chairman and the Ranking 
Member for this hearing.
    Admiral, thank you again for your service. I have often 
said in this committee and said to TSOs and others that the 
Transportation Security Administration are the first responders 
of aviation security. I believe that is important to convey to 
your management, to you and to certainly the line officers, 
supervisors, and others who go out every day to do this great 
work.
    I also want to acknowledge the Chairman and Ranking Member 
of this committee because they have led an enormously 
bipartisan committee that only focus, or main focus is the 
security of the Nation. This makes this a pleasant experience 
because we are committed to getting the job done, if you will. 
We want to get the job done with you.
    So, I want to emphasize a thought that it is difficult to 
call yourself the reprogram government. It is hard to reprogram 
for infectious diseases. It is hard to reprogram for military. 
It is hard to reprogram for the security of the Nation, 
particularly in aviation security.
    So, I understand that we may be getting 700 TSOs coming 
this summer. I want to follow the line of questioning that our 
Ranking Member had with this particular graph here. It is stark 
between 2011 and fiscal year 2016, particularly with the 
increase in travelers. I think we might even get more.
    So can you--I understand we may be getting 700. I 
understand that we may be getting at a point 1,600, and then 
2,500. Can you put that in perspective of when these numbers 
will come to add to the TSOs?
    Admiral Neffenger. Yes, ma'am. The 768 that we are hiring 
right now should all be on board by June 15. So we are hiring 
them now. So they are rolling into the system. But we should 
have them all trained and on board by June 15.
    Ms. Jackson Lee. June 15.
    Admiral Neffenger. That is right. Then they will add to 
that. That is in addition to the normal hiring that we are 
already doing. So that is on top of the 200 new officers a week 
that we are putting out of training currently.
    Ms. Jackson Lee. So is that fiscal year 2016, can we expect 
1,600 and then 2,500? Do I have these numbers----
    Admiral Neffenger. Well, the 1,600 was the number I was 
scheduled to lose in fiscal year 2016. So Congress allowed me 
to keep that number. So, we had already----
    Ms. Jackson Lee. That is somewhat of a plus, but you didn't 
lose them. So that 1,600----
    Admiral Neffenger. We just didn't lose them. Yes, ma'am.
    Ms. Jackson Lee. Then what is the----
    Admiral Neffenger. So this 768 is a plus on top of that 
1,600 that we would have lost. We had already cut some into 
that number to meet the fiscal year 2016 targets, we had to 
hire back some of those.
    Ms. Jackson Lee. Does that make the 2,500 additional or--
obviously 16 and 7 is 23. But what do you think you are going 
to get in fiscal year 2016?
    Admiral Neffenger. Well, I think we will keep the 1,600, 
plus the 768 on top of that. So that gives us roughly the 23--
2,400 or so.
    Ms. Jackson Lee. Does that include the potential 
reassignment, redeploying of BDOs which I think is an excellent 
idea, particularly having them be at a point where they can 
assess--a stationary point--where they can assess almost every 
individual that comes through.
    Admiral Neffenger. No, that gives me additional capability 
on that of that. That is a real capability right now. We are 
moving those in right now and then the conversion of part-time 
to full-time.
    As you know, we have quite a few part-timers that would 
love to be full time. But eventually they can't wait long 
enough for a full-time position to open so we lose them. So we 
have a high attrition rate in our part-time workers.
    Ms. Jackson Lee. Let me ask a series of questions, I 
congratulate you on FLETC. One of my concerns is training, 
training not only the new recruits but training the existing 
TSOs.
    That ties into the numbers that we reflected on dealing 
with accuracy, I will just make that general point. I would be 
interested in your work on accuracy and also on the training. I 
would hope that we could actively engage in training ex-
military, and I indicated some time ago college recruits. I 
would like you to comment on that.
    The last question is Chicago was the epicenter; everybody's 
eyes were on Chicago besides Arizona and the equipment failure. 
If you can finish your questions by saying what is the 
appointed and immediate response to Chicago? Which is an 
example of what other cities are facing.
    Admiral Neffenger. So immediately in Chicago and this is--
when I talk about Chicago, understand we are also doing the 
same thing at the other top airports because, well, Chicago was 
a preventable incident, in my opinion.
    When you look at what happened, this was a surge that was 
anticipated, it was known. It was a failure to get some things 
done in advance of that. We have proved that by fixing it 
pretty quickly.
    So in Chicago, among other things, we had already planned 
to put additional officers in there. So of that 768, 58 of 
those individuals are coming into Chicago by the end of this 
week. There will be a total of 58 new.
    We converted 100 of our part-time officers to full-time 
officers and we pushed a lot of overtime hours there so that 
they can use overtime hours. You have to be careful with 
overtime; you don't want to burn up your full-time workforce 
but it is very effective at taking part-timers and giving them 
more hours and many of them want those.
    We also moved some additional K-9s; these were K-9 teams 
that we had planned to be moving. We just accelerated their 
move into Chicago. The total of that has resulted in a 
significant change in the Chicago picture.
    The Chicago Tribune reported in today's paper that the 
longest wait time was 15 minutes yesterday and that was with 
significantly higher volume. So it tells me that with some 
targeted additional resources, efficient use of those resources 
and then a management team that understands how to run that 
daily tactical operation, you can make a big difference.
    That is what we are doing at each of the big airports, 
right now.
    Ms. Jackson Lee. Recruitment?
    Admiral Neffenger. Recruitment, fortunately, right now we 
do not seem to have trouble meeting our recruiting targets. We 
have large pool of people that have been pre-vetted. That is 
why we were able to rapidly begin to hire that 768 because we 
had a large pool of available applicants that had been screened 
that were looking for work.
    I still want to work on bringing more of that back in-house 
than is currently done. As you know, we work through a private 
contractor to do our hiring and recruiting right now.
    Ms. Jackson Lee. I will get your other answers in writing 
regarding the institute that--in Georgia, FLETC about how you 
can utilize that better. Let me just conclude by thanking the 
TSOs all across America for the great service that they do for 
this Nation.
    I yield back.
    Chairman McCaul. The Chair now recognizes Mr. Rogers, from 
Alabama.
    Mr. Rogers. Thank you, Mr. Chairman.
    Admiral, thank you for being here and for your service to 
our country. I think you are a good man, a competent man who 
has been given an impossible task to administer the TSA.
    The TSA has wallowed in its own bureaucracy for more than a 
decade. Over that period of time, it has built up a lot of bad 
habits that have come to fester. You spoke in your opening 
statement about making the TSA a more responsive organization, 
leaner and smarter. I want to help you do that.
    To that end, I plan to introduce legislation to transform 
TSA from an H.R. not-merit to a security-focused organization 
by reforming and greatly expanding the Screening Partnership 
Program. Having worked on these issues for more than a decade, 
I have seen that TSA can do a mission when it is given a clear 
succinct mission.
    My bill is going to allow more airports to hire private 
contractors capable of managing day-to-day operations and make 
TSA the driving force to oversee intelligence-based security 
strategies. These changes will get more out of your 
organization than any summer-rushed Band-Aid bill could ever 
do.
    You can spend your time conducting covert testing and 
building effective strategies instead of trying to decide who 
is going to work the morning shift at Reagan Airport. To the 
end, I want to talk to you about the SPP Program.
    Last year, the GAO determined that TSA is not fairly 
comparing the cost of Government-run screening operations with 
their privately-run SPP counterparts. In November, I requested 
TSA release more accurate cost data to Congress and GAO. Your 
agency promised to deliver that information within 6 months, 
but it never came.
    In March, I asked you personally for the data during a 
budget hearing and then sent you a letter to remind you of 
that. It still hasn't showed up. It has been 191 days since I 
requested that information.
    Can you tell me when I am going to receive the accurate 
cost comparison that GAO says we need to get?
    Admiral Neffenger. Yes, sir. As you know, I agreed with GAO 
that we usually do a better job. GAO set a deadline for us of 
the end of June. We are working very closely with them in order 
to meet that deadline.
    We are on target to meet that deadline. We have been 
meeting with GAO regularly to ensure that they concur with what 
we are finding and that it meets the recommendation they made, 
as well as an accurate accounting of the costs because I need 
the same thing.
    Mr. Rogers. By the end of June I can count on seeing that?
    Admiral Neffenger. Yes sir, we are on target to meet that 
deadline.
    Mr. Rogers. Excellent.
    Next, you talked about the K-9 screening programs. You know 
I am a big fan of that technology. I believe it is the most 
effective that we have in our toolbox.
    But I went out to Lackland a couple months ago; I have been 
out there several times. But I was looking at some of the 
training they are doing, what you all refer to as passenger 
screening K-9s.
    That has been held out by TSA to me as being the same as 
Vapor Wake K-9s. In fact, what I saw was nothing comparable to 
Vapor Wake K-9s. They were training K-9s to basically work the 
lines at an airport. Which means you have to go up to the 
passenger, the K-9 has to go either smell them personally or 
right at them.
    As you know from Vapor Wake K-9s technology, which we use 
over here at the Capitol, used over at Union Station, is used 
at the Grand Central Station in New York, many places. The K-9 
doesn't have to come close to the passenger.
    They can just detect the air for up to 15 or 20 minutes 
after a passenger has disturbed it. Can you tell me why that 
technology is being trained at Lackland in that more narrow 
scope instead of the more effective Vapor Wake training?
    Admiral Neffenger. Well, I will get you a fuller answer for 
the record but here is how I understand it. I have cautioned 
that I am speaking without the benefit of an expert next to me.
    When you look at a passenger screening line, it is a 
slightly different dynamic because you have got an enclosed 
line of people. So as I watch those dogs operate, what they are 
doing is--if you notice they are moving their head around a lot 
because they are checking for vapor.
    We typically put enclosed panels next to the stanchions 
where possible, or enclose the checkpoint behind a panel. So 
the dog is doing two things, it is both checking the vapor as 
somebody goes by them but it is also sniffing the general vapor 
in the air.
    My understanding is they had to modify it somewhat for the 
very specific nature of the way people line up in queues. But 
let me get you a better, more complete answer to that.
    Mr. Rogers. Yes, as you know--that is fine. That is much 
better than doing nothing and it is much better than the 
equipment we use. But as you know, you can put these assets out 
in a foyer area before people even get to the line.
    They can detect the air that has been disturbed by somebody 
who has walked by in the recent 15 or 20 minutes without having 
to come up to the person. That is a very valuable deterrent. 
Also putting them past the checkpoint, in case the machine 
doesn't detect something.
    These again, are assets that don't have to come up to the 
person. Unfortunately, for some people it is uncomfortable to a 
dog come up and smell them. Wouldn't bother me, I am from 
Alabama. But now, some folks would be bothered by it.
    With that, I yield back, Mr. Chairman.
    Chairman McCaul. Thank you.
    The Chair recognizes Mr. Langevin.
    Mr. Langevin. Thank you, Mr. Chairman. I want to thank you 
and the Ranking Member for holding this very important hearing.
    Admiral, thank you for your testimony and for your service 
to our country.
    I agree with my colleague that you have an impossible task 
on your hands, but an important one. Clearly, the wait times at 
airports that the traveling public are having to deal with are 
unacceptable. Certainly, my constituents and people around the 
country are demanding quicker lines. I know that is our goal.
    One of the priorities that you and Secretary Johnson laid 
out as part of your 10-point plan is doubling down on R&D at 
TSA. I appreciate the promise of new technology to expedite 
screening, but can you preview some of what we can expect?
    Admiral Neffenger. Well, thanks for that. I do think we 
need to do a better job of both research, development, and 
incentivizing the private sector to come forward with ideas. 
But here is an example I think of what we can see.
    If you look at the Atlanta Airport today, we just--we 
opened 2 new automated screening lanes down there. This is not 
something new. It has been in use in Europe for a number of 
years. But these are--if you think about a standard lane, you 
walk up to a lane and there is a table there. You put your 
stuff up on the table and you slide it along the table until 
you can engage the conveyor belt.
    This is a fully automated system. The bin returns 
automatically. It has got an RFID tag and a bar code that ties 
it directly to you. It takes--there is a photograph taken of 
your stuff as well as an X-ray. It takes off automatically. 
There are 5 stations at which people can line up, so you don't 
have to go single file. You can take 5 people at a time up to 
the checkpoint. They cycle in as they fill their bins up, and 
it goes through.
    London Heathrow has said that they have seen on average 
anywhere from a 20 to 25 percent increase in throughput at the 
same level of effectiveness. So we are very excited about that. 
I think that as you look at increasing passenger volumes, at 
some point you reach capacity with a manual system. And then 
you have to look to automate things. I think that TSA needs to 
work closely with the system to get it more automated and to 
bring more technology in.
    Mr. Langevin. Can I ask you--on that point, on the 
automated part, just so I am clear. So, that part is automated, 
but there is still a human--a person in the loop actually 
looking at what is in the carry-on baggage that is being 
screened?
    Admiral Neffenger. There is still somebody reading an X-ray 
right now. We are also working with software companies to 
determine how effective machines can become at identifying 
prohibited items, so that you can put humans into the work that 
humans do best, while at the same time, you know, moving 
machines out to what they do best.
    We are also looking at changing the way we do identity 
matching. I look at--when I look around an airport and I see 
all those kiosks that distribute boarding passes, there is 
typically some type of an ID reader on all of those. If you can 
get ID-reading technology into there, there are things we can 
do that can, you know, automate the identity check process as 
well.
    Mr. Langevin. So, let me shift over to one other thing. I 
may come back to technology in a minute. But so, TSA has 
publicly stated its goal for PreCheck as having 25 million 
enrollees. I know my colleague, Mr. King, asked about the 
enrollees in the PreCheck system and what that would mean if we 
actually had 25 million.
    But right now, currently TSA only has 2.76 million people 
enrolled. What is TSA's plan for expanding PreCheck to further 
reach that goal of 25 million enrollees?
    Admiral Neffenger. I just want to clarify. The 25 million 
is all trusted travelers. So that would include Global Entry, 
Nexus, and Sentri. Right now, we are at about 9.5 million of 
total trusted travelers. These are people who have enrolled in 
some program of the Federal Government.
    So there are a couple of things we need to do. First of all 
is to expand the enrollment opportunities. I don't think we 
have enough enrollment centers out there. We are working with--
we currently have one vendor that provides the contract 
enrollment services. We are hoping to expand that this year to 
additional vendors under a new contract.
    The second thing is to make those centers more available to 
do more mobile enrollment, to streamline even further the 
application process. We do have an on-line application process, 
but you still have to show up to do your fingerprints. And then 
we are working with airlines and traveler reward programs. Many 
of the airlines are now offering mile redemption for PreCheck. 
Microsoft Corporation recently bought PreCheck for all of its 
travelers. And many of the travel reward programs are providing 
the ability to trade in your miles or points for PreCheck.
    Mr. Langevin. So, currently to enroll in PreCheck, the 
individual has to pay a fee of $85 to be enrolled for 5 years. 
However, for those that fly once or twice a year, this may not 
be feasible or practical, and could distract from TSA's efforts 
to broaden enrollment.
    Has TSA thought of any alternatives to paying $85 for 
PreCheck? Can you detail any thoughts on that?
    Admiral Neffenger. Well, most of those fees go directly to 
cover program costs right now. So it is--it would be 
challenging to, under the existing contract, to change the fee 
structure. That is why we encourage people to look at their--if 
they are members of trusted traveler programs of some sort, 
then there are opportunities being offered through various 
programs to get direct reimbursement or direct vouchers for 
PreCheck.
    Mr. Langevin. I know my time is expired. I just, if you 
could on a follow-up or perhaps in writing, going back to the 
technology issue. In deploying new screening technology, I 
wonder how we can ensure that we avoid the mistakes of AIT.
    So, I know my time is expired, but I will yield back.
    Chairman McCaul. The Chair recognizes Mr. Perry.
    Mr. Perry. Thank you, Mr. Chairman.
    Good to see you, Admiral.
    Let's talk about bonuses a little bit. TSA requested almost 
$80 million for bonuses and performance rewards for fiscal year 
2017. As I am sure you are aware, it has been revealed that the 
assistant administrator received almost $90,000 in bonuses over 
a 13-month period.
    So, let's just start with this, what do you do to get a 
bonus? What do you do? What did the assistant administrator do 
to receive $90,000 in just bonus, right? I don't know what the 
rate is for an inspector, but at least one, right? You could 
hire one with the bonus.
    What I think most of the American people view as a historic 
critical failure right now, looking at the lines and the 
throughput. I wonder what you have got to do to get a bonus at 
TSA. I think they are wondering what we have got to do.
    Admiral Neffenger. Well, I wasn't here then, as you know. 
When I discovered that, in my opinion, that is completely 
unjustifiable. I think it is appropriate to have the ability to 
reward good performers in any line of business.
    Mr. Perry. Sure.
    Admiral Neffenger. So, my belief is first of all, you 
follow existing policy in OPM. So the first thing I did was 
eliminated the practice of multiple bonuses to any one 
individual. So I have dramatically changed that. My goal is to 
push more reward bonuses out to the people in the organization 
that do some of the real front-line work.
    So I can't justify the level of bonuses that were provided 
in the past. I can tell you I stopped that. I watch it very 
carefully. I put significant management controls on it, 
including requiring oversight by the Department of Homeland 
Security of anything. I don't want anything happening inside 
TSA when it comes to bonuses to senior executives.
    Mr. Perry. Okay, so the program does still exist. I think 
to a certain----
    Admiral Neffenger. This is a program across the Federal 
Government.
    Mr. Perry. Right, right. Do you know, how much was spent by 
TSA last fiscal year on bonuses? You know, I am trying to 
juxtapose that with the $34 million reprogramming for 768 
inspectors, and just trying to get a----
    Admiral Neffenger. I don't have the number at the top of my 
head. I will get you the number for the record, sir, but I 
don't have it off the top of my head.
    Mr. Perry. All right. Well, thank you for that.
    Moving on, there was a GAO report regarding employee 
misconduct, specifically attendance and leave. One of the 
things they found that penalties for misconduct and failure to 
attend were lower than TSA's own guidance and recommendations.
    Let me just ask you this, if you know, and if you have done 
any of your own studies: Do unexcused absences and tardiness 
create problems in staffing--in effectively staffing 
checkpoints?
    Admiral Neffenger. It can. It depends on the extent to 
which it happens. It depends on what the reasons are for it. 
But if you have significant numbers of unexpected--it will 
dramatically affect your ability to staff.
    Mr. Perry. So, of course, that is directly correlated with 
increased wait times if folks aren't there. Do you know if that 
is something that has impacted to the point that you are taking 
a look at that?
    Admiral Neffenger. We are taking a look at it. One of my 
concerns is that we understand if we don't have staff in place 
when we expect to have them in place, what is the reason behind 
that? Did we inadvertently give people leave when we shouldn't 
have given them leave? Or did they just not show up? If they 
didn't show up, what would be the reason for that?
    That is all part of the calculus to determine, you know, 
how you are ready for a daily tactical operation.
    Mr. Perry. Do you know what some of the disciplinary 
actions are for employees with unexcused absence or excessive 
tardiness? Do you know some of the actions you would take? 
Because the report said that the penalties for misconduct in 
the past have been lower than--generally lower than the 
guidance--than your own guidance by TSA.
    Admiral Neffenger. Well, you know, as I look at it, and I 
think back to my military experience, when you get guidance, 
sometimes that guidance will give you the maximum penalty 
allowable. You may or may not need to assign that.
    Mr. Perry. Sure.
    Admiral Neffenger. So I think it really is a case-by-case 
look. If you have got specific cases that you are interested 
in, I mean, I will be happy to take that for the record.
    But my opinion, as I said, there may be a valid reason why 
somebody doesn't show up on time even if it caused you some 
real problems for them not showing up. Maybe they should have 
called, they didn't call. So the level of discipline or 
punishment you give really is a case-by-case study. It is hard 
to give a blanket answer to that.
    Mr. Perry. I understand. I was kind-of looking for a range 
there. You probably know that the subcommittee that I chair, we 
are conducting our investigation into the misconduct and of 
course, the penalties associated and potential correlation with 
increased wait times. We will be looking forward to working 
with you.
    Admiral Neffenger. No, same. I am very interested in this 
problem because I want to get to the root of management issues 
throughout the organization.
    Mr. Perry. Appreciate your time. Thank you. Mr. Chairman, I 
yield back.
    Chairman McCaul. The Chair recognizes Mrs. Watson Coleman.
    Mrs. Watson Coleman. Thank you, Mr. Chairman. Thank you, 
Administrator Neffenger.
    Admiral Neffenger. Thank you.
    Mrs. Watson Coleman. You have an incredibly difficult job. 
I am glad that you are the one that is in it. I am very 
concerned about the wait times. I really do believe that the 
airlines, by allowing people to carry 2 and 3 bags instead of 1 
bag when they are carrying one to the--on the aircraft, 
contributes to the wait and the amount of time it takes to go 
through the lines.
    I know you need additional resources and I am really 
interested in knowing, at some point, the answer to Mr. 
Thompson's question about how many do you think that you need. 
I know that it is uneven sometimes in going through even the 
PreCheck lines where they are telling you take your shoes off 
and take your belt off. I am like, I thought that is why I was 
in PreCheck and I wouldn't have to do that. So I am happy that 
you have an academy and that you are training people now.
    I want--and I have got an issue. I have got a question 
about this issue of partnerships. Because there have been a few 
instances where airports have threaten to privatize as an 
alternative to Federalized screeners, which I am more 
comfortable with, sir.
    There have also been articles and statements from those who 
believe that the SPP provides marginal, if any, benefit in 
terms of reducing wait times. Is there any measurable 
difference between the use of Screening Partnership Programs, 
versus Federalized screeners, or is the problem a resource 
problem that would be shared by TSA and private screeners 
alike?
    Could we be certain that they would be equally as concerned 
with the security measure as they would be with the convenience 
of getting through the lines quicker?
    Admiral Neffenger. Well thanks for the question. I--first, 
it is important to understand that even a private screening 
contractor works for the TSA. It is contracted to the Federal 
Government, contracted to TSA and it is a TSA management staff 
that runs that. I think that is important because, from my 
perspective, the National security is a Federal function and 
you need National standards when it comes to that.
    In my mind, so when you look at performance, you know, it 
is roughly the same from a private--we train them to the same 
standards. In fact, they train at our TSA academy.
    From my perspective, the flexibility I get with a Federal 
workforce is--for this National deployment force, I mentioned, 
these are TSOs who have volunteered to be deployable in--for 
surge events and for others. But we have about 250 of those. I 
can do that with a Federal workforce. I can't reach into a 
private workforce without working a contract issue.
    So if I need to surge, it gives me the ability to do that. 
I can also move personnel more rapidly from place to place as I 
need to. So from my perspective, that is a benefit as a manager 
of having a workforce that works directly for me versus 
contracted to me.
    Mrs. Watson Coleman. Thank you. You talked about the fact 
that there is only 1 vendor that you work with on the PreCheck 
program and that the $85 that one has to pay really only covers 
the administrative expenses. So when you are going to expand 
this opportunity to other vendors, do you think that that will 
create competition and reduce the cost associated with that?
    Admiral Neffenger. I really hope so. In fact, that was one 
of the things that we built into the request for proposal was 
to look for ways to reduce the fee. I think competition can do 
that.
    Mrs. Watson Coleman. Or if not reduce the fee, at least 
allow some of that fee to be used to ensure that you all have 
the resources you need to do the job that needs to be done.
    Admiral Neffenger. Right. I think--what we looked for were 
flexible options for how you would fund this and pay for it in 
a different way.
    Mrs. Watson Coleman. TSO employees, I know that the part-
time employment is something that you really have a lot of 
turnover in because people need full-time jobs. But I would 
like to know how much an incoming TSO gets as a full-time 
employee. What is that salary?
    Admiral Neffenger. You know, I don't want to get the number 
wrong off the top of my head. It depends upon location, 
obviously, because they get locality pay to try to make it 
equivalent.
    Let me get you the number for the record. It is--I want to 
say it is around $30,000. But let me get that number for the 
record.
    Mrs. Watson Coleman. Do you have a high turnover rate in 
the full-time employees?
    Admiral Neffenger. No, actually our full-time workforce is 
pretty stable. It runs between 8 and 9 percent. We get--but we 
have about a 25 percent turnover rate in the part-time 
workforce.
    Mrs. Watson Coleman. One of my colleagues mentioned the 
relationship you have with the police. I think it was Mr. King 
particularly singling out the port authority police of New York 
and New Jersey. I had meetings with them and they tell me that 
there is like one police officer assigned to a terminal.
    Do you find that there is enough police capacity and 
support in the terminals?
    Admiral Neffenger. Well, we have been--I have been looking 
at that pretty hard. As I travel around I meet with the various 
law enforcement agencies that work in the airports. Some have 
more capacity than others. There is no doubt about that.
    But I am finding in the large airports that for the most 
part, they understand their mission, they take it very 
seriously. They are working in the public areas of the airport. 
They also--we also have a reimbursement program, as you know, 
which reimburses them for the time that they spend in and 
around the checkpoints. As I said, we have put duress alarms 
into every single checkpoint in the country to ensure that 
there is a--as rapid a response as possible.
    Mrs. Watson Coleman. Mr. Neffenger I just need you to know 
that I agree that you have got an extremely important job to 
do. For me, I don't care sometimes about being inconvenient. I 
want to get on an airplane and know I am going to get there 
safely. I appreciate what you have to contend with.
    I just want to make sure that I understand what you need so 
that I can fight for what you need to make sure that we are 
safe and that your agency has the resources it needs.
    Admiral Neffenger. Yes, ma'am.
    Mrs. Watson Coleman. Thank you very much. I yield back.
    Chairman McCaul. Chair recognizes the Chairman of the 
Subcommittee on Transportation Security and Infrastructure 
Protection, Mr. Katko.
    Mr. Katko. Thank you, Mr. Chairman. Sir, Neffenger--good 
morning, and I want to state preliminarily, I appreciate the 
collaborative effort we are working on with my subcommittee. In 
fact, we met for an hour-and-a-half the other day at your 
offices and I appreciate the frank discussions and the give and 
take and your commitment to trying to get things done and 
putting politics aside and I appreciate that.
    But something kind of piqued my curiosity when we were 
talking today and that is the fees surrounding PreCheck. There 
is a PreCheck bill sitting over in the Senate now that is 
wait--ostensibly because they want--the Senate wants the fees 
to go to general treasury that are generated from the PreCheck 
fee.
    So I want to talk about those fees a second. Tell me, what 
does that $85 go towards?
    Admiral Neffenger. As I said, it primarily covers the full 
program cost. So there is a component that pays the FBI--
reimburses the FBI for the background checks that they do. That 
is a fixed fee that the FBI charges to conduct the background 
checks.
    There is a component of the fee that covers TSA's 
administrative costs because it is a self-funding program. So 
it pays for the overhead and the staff and the administrative 
staff to do that. Then the bulk of the fee then goes to the 
vendor to cover their costs, both for the physical enrollment 
centers and their personnel.
    Mr. Katko. Okay. So if that $85 was taken away and gone--
goes right to the general treasury, who would pay for all those 
costs? Would it be TSA? Would it not?
    Admiral Neffenger. Well, we would have to find the money 
someplace.
    Mr. Katko. Okay. So let's say--so $85--$85 is in fact the 
cost, and you want to enroll 10 million more people, that means 
$850 million you would have to find somewhere else in your 
budget, is that right?
    Admiral Neffenger. That is right. Yes, sir.
    Mr. Katko. It is kind of insane, isn't it, if you think of 
that?
    Admiral Neffenger. Well I like self-funded programs.
    Mr. Katko. Okay. So the bottom line--there is a bill that 
is sitting over in the Senate. I just want to make sure I 
understand it. It directs TSA to partner more closely with the 
private sector and have basically competition, if you will, in 
the PreCheck program. That would help drive cost down. That is 
a goal of it.
    So with that being said, do you believe that that bill 
would help you achieve the higher numbers with PreCheck?
    Admiral Neffenger. Well you know, what that bill does is 
codify what we are trying to do right now, which is to increase 
competition in the private sector with the hope of that 
competition driving the cost down.
    Mr. Katko. Okay. All right, good enough. Now with respect 
to--I want to talk to you just for a second about the bonuses 
that were given out. Is there a system at TSA that--whereby 
subordinates can nominate superiors for bonuses or put them in 
for bonuses?
    Admiral Neffenger. Apparently there was a system that 
allowed that. That system doesn't exist under my leadership.
    Mr. Katko. So you have stopped that.
    Admiral Neffenger. I absolutely have. Yes.
    Mr. Katko. Okay, there was a system, you stopped that and I 
commend you for doing that. That seems incongruous to me. It 
just doesn't--I don't understand how----
    Admiral Neffenger. No I--right now, it requires approval by 
me and then seconding by the Department for any bonuses awarded 
to senior executives.
    Mr. Katko. Okay. If I may switch gears one more time 
because I know you have talked a lot of different topics, so I 
want to expand a little bit here. ICAO was the international 
organization that basically certifies a minimum level of 
competence for airports. Is that correct?
    Admiral Neffenger. That is correct.
    Mr. Katko. Do you rely on--once somebody hits the ICAO 
level, that is it and that is all you care about?
    Admiral Neffenger. Well, as you know, we are signatory to 
the ICAO treaty and that sets a standard around the world for 
security. From my perspective, I think you have to continuously 
pay attention to these standards and try to drive them up even 
higher.
    In fact I just--I recently met with the ICAO counsel in 
Montreal. As you know, there was a general assembly this year 
and I pushed for an aggressive security agenda at the general 
assembly and we tend to continue to drive that.
    In advance of that, we are--we look at every place that 
services the United States directly and we put a significant 
additional requirements in place to insure that we are 
comfortable with the screening and overview standards that they 
are using.
    Mr. Katko. Okay. So I just want to ask a couple things 
about that. With respect to these last-point-of-departure 
airports, LPDs, you know we have a bill that has been 
submitted. It is over in the Senate now waiting approval. That 
is why I am interested in this area a little bit.
    How important are these LPDs to have body scanners at the 
airports?
    Admiral Neffenger. Well, I think--body scanners may be the 
right answer depending on where you are looking. What I am most 
concerned with, are they effectively screening? I can 
understand why some places might not have a full body scanner. 
But if they don't have one then they have to have some other 
things in place to be equivalent to that.
    So you can do that by full-body pat-downs, you can do that 
by explosive trace detection. There are lots of other means to 
do that.
    Mr. Katko. Is explosive trace detection equipment important 
to have at these airports?
    Admiral Neffenger. Again, if--we like to see that. We have 
been working with ICAO and other foreign partners to push that 
type of equipment out. In the absence of that, then I want to 
see some very stringent additional requirements that would make 
up for the lack of that as we try to build that capacity.
    Mr. Katko. How about document verification machines to 
authenticate documents that are coming through? Are they 
important as well? Same answer?
    Admiral Neffenger. Well that is important to me. If 
somebody is flying to the United States, I want to know who 
they are.
    Mr. Katko. Okay. So if you had an airport that didn't have 
body scanners and didn't have explosive trace detection 
equipment, didn't have document verification machines, and had 
troublesome, if not incompetent, K-9 teams, would those types 
of airports that have those things lacking, would they be a 
cause of concern to you?
    Admiral Neffenger. I would pay very close attention to 
airports like that. I want to be sure that they meet 
appropriate standards for us.
    Mr. Katko. Okay. Last thing I will ask about this--I 
apologize, Mr. Chairman--and that is the personnel at those 
airports, is it important for you to know how those personnel 
are trained and whether or not they are giving adequate 
security background checks?
    Admiral Neffenger. That is part of what we try to verify 
when we go into foreign last points of departure to determine: 
Are they meeting standards that are appropriate for us to fly 
into this country?
    Mr. Katko. Thank you very much. I yield back.
    Chairman McCaul. Chair recognizes Mr. Payne.
    Mr. Payne. Thank you, Mr. Chair. Ranking Member. 
Administrator Neffenger, you have a very difficult job here. I 
just want you to know that a lot of us appreciate your efforts 
in making sure that the final checkpoint before our citizens 
get on to airplanes are safe, along with the TSOs.
    You indicated that the TSOs with the behavioral detection 
training are being integrated into a checkpoint as document 
checkers. You also said that the FSDs have been granted 
unprecedented flexibility. Would you have a problem with the 
FSDs using a BDO for a checkpoint screening yourself?
    Admiral Neffenger. If they determine that that is their 
highest need at that moment, I have no problem with that. They 
have that authority to do that.
    Mr. Payne. Okay. In April the FAA announced that they would 
be redesignating Newark Liberty International Airport, which is 
in my district, as a level 2 slot-controlled airport starting 
in October, potentially increasing the number of flights 
arriving and departing from the hub.
    How is TSA prepared to deal with the increased air traffic 
and the larger number of passengers that will come in with this 
designation? I know there have been great efforts over the past 
week to alleviate some of the time in Newark. We appreciate you 
looking at that and trying to be helpful as possible.
    But if this comes in October, naturally, you know, what we 
have done to this point will need to be reevaluated and looked 
at again. I know several TSOs are coming on-line as well as we 
move forward.
    But what would you do to take a look at that, knowing that 
this is going to change?
    Admiral Neffenger. Yes, sir, and in fact, what--this 
increased collaboration with the airlines and the airports is 
helping us to foresee problems like this in a way that we 
hadn't in the past. I don't want to get caught by surprise by 
something like that. Because, as you say, if you increase 
flights dramatically, you have got--we have got to be prepared 
to receive those.
    So we have been working very closely with the airlines and 
that airport to understand what that might look like, when we 
think we will begin to see that so we can get well in advance 
of that. I know that a couple of the major airlines there are 
already considering some things that they might do with respect 
to increased automation at the checkpoint, increasing the 
availability of checkpoint lanes. We are pushing resources into 
Newark and we will continue to do so.
    Mr. Payne. We had an incredible subcommittee hearing that 
Mr. Katko chaired just the other day where we had several of 
the airports come in and really share with us and I think, with 
the Chairman there and Mr. Katko, heard a willingness to try to 
work with TSA on these issues. They were quite a few major 
airports and hubs that were here to speak. So moving forward, 
we would like to continue to get that collaboration----
    Admiral Neffenger. Yes, sir.
    Mr. Payne [continuing]. That we think that might not have 
been there to this point. Or not to the level that it needs to 
be. Let me just say also, I have been echoing this every 
opportunity that I have gotten the past several days, we really 
need to look at our TSOs and see what the compensation level is 
for them.
    They have a very important job. They are the last line of 
defense for some catastrophic situation to happen. You know, I 
don't know how many people can raise a family, you know, on 
what we might think is $30,000 in this country.
    So we need to even look at the compensation of the TSOs. 
Understanding that they have a thankless job, first of all. 
They are on the front lines. They should be compensated in a 
manner of which the importance of their job is. Thank you.
    Admiral Neffenger. I would agree.
    Chairman McCaul. Chair recognizes Ms. McSally.
    Ms. McSally. Thank you, Mr. Chairman. Thank you, Admiral 
Neffenger. At the beginning of your testimony you said your 
first point of focus is a focus on the mission. I pulled up 
your mission statement for TSA and it says, ``protect the 
Nation's transportation systems to ensure freedom of movement 
for people and commerce.''
    I have been reading reports that your agents in the midst 
of the crisis of making sure in the increasing terrorism threat 
that people are able to fly safe, we don't have another 
terrorist attack in America. That also people are able to move 
quickly to get to where they need to be.
    But I have seen reports that your agents are being pulled 
to support things like Presidential campaign events, concerts, 
sporting events, and other things. I don't see that anywhere 
within your core mission and your core responsibilities.
    So my first question is, under what authority is TSA 
screening Americans on their way into a sporting or concert or 
Presidential campaign rally?
    Second, where does that fit into the priorities? If 
everything we have heard today about the importance of keeping 
our transportation safe and making sure that people can get 
there in a timely manner in this manning sort of crisis, where 
is the priority of supporting these events that have nothing to 
do with your core mission?
    Admiral Neffenger. Right now, we provide support to Secret 
Service when they ask under an intergovernmental service 
agreement. We currently have detailed--I shouldn't say 
detailed. They are on standby. We have 75 people on standby to 
assist with Presidential security events over the course of the 
summer. We will likely be asked to do that----
    Ms. McSally. Presidential or campaign?
    Admiral Neffenger. This will be--we will be likely asked to 
do this at the conventions, wherever the Secret Service is 
providing----
    Ms. McSally. So there are reports there has been over 250 
events that TSA Agents have been supported.
    Admiral Neffenger. We have supported events around the 
country. I have been working with the people who are asking for 
us to let them know that we are in our own crisis right now. 
You know, we would like to have as many of those people back as 
possible.
    Ms. McSally. Okay. So, prioritization--you don't get to say 
no?
    Admiral Neffenger. Well, with Secret Service, we support 
that because it is--that is a pretty important mission and we 
are--for the Federal Government, we are the screening experts.
    Ms. McSally. Look, I agree it is important to make sure 
that people that are attending these large-scale events are 
safe. But I don't see that anywhere within the core competency 
of TSA and your mission. Do you agree?
    Admiral Neffenger. Our core mission is transportation 
security. Yes, ma'am.
    Ms. McSally. Okay. So is there--possibly would you agree if 
we can work on a better way to make sure that people going to 
concerts are safe, while allowing you to focus on your core 
mission?
    Admiral Neffenger. I would like to be fully focused on my 
core mission.
    Ms. McSally. Okay. Well, thank you.
    Second, I sent you a letter on April 12 asking a number of 
questions related to the issues that are at our hearing today. 
I asked if you would get back to me by April 26, that is about 
29 days ago. I haven't heard back from you yet. I was wondering 
when I might be getting an answer to this letter?
    Admiral Neffenger. Let me find out. I am not sure why you 
don't have an answer.
    Ms. McSally. Okay. Mr. Chairman, I ask unanimous consent to 
put my letter into the record and ask the admiral to just 
respond in writing for the record as part of this hearing.
    Chairman McCaul. Without objection, so ordered.
    [The information follows:]
         Letter Submitted for the Record by Hon. Martha McSally
                                    April 12, 2016.
Honorable Peter Neffenger,
Administrator, Transportation Security Administration, 601 South 12th 
        Street, Arlington, VA 20598.
Dear Administrator Neffenger: As you may know, in recent months, 
airport security checkpoints nationwide have encountered exceedingly 
long lines and extensive wait times for passengers. With heavy travel 
season quickly approaching, I write to express my concerns about how 
this could affect the free flow of travel and understand how the 
Transportation Safety Administration (TSA) intends to mitigate the 
problem.
    In 2015, a Department of Homeland Security Office of Inspector 
General report revealed that an internal, undercover investigation 
conducted by Red Teams--undercover inspectors tasked with identifying 
weaknesses in the screening process--found that airport screening 
checkpoints across the nation failed in 67 out of 70, or 95%, of tests 
to detect threat items. These reports were extremely troubling and 
unacceptable and demonstrated that the safety of our nation's travelers 
was clearly at risk. At a time when transportation hubs remain targets 
for terrorist organizations, I applaud efforts to address these 
shortfalls, through massive re-training efforts and security protocol 
revisions. However, it has now become clear that those efforts are also 
causing immense obstacles in ensuring efficient travel at a time when 
airports are experiencing record passenger volume. Additionally, it 
appears that your agency's frontline workforce may be buckling under 
the pressure of operating under these circumstances while you attempt 
to hire more agents. I am concerned that TSA's existing hiring 
practices are cumbersome and unable to meet the pressing mission needs 
of the agency.
    Part of the security line issue also pertains to the TSA PreCheck 
program that launched in 2012. Customers at our nation's airports are 
spending their hard earned money to capitalize on a program that 
promised to ensure them expedited screening at security checkpoints 
only to find rampant lane closures of PreCheck lanes.
    In order to better understand how TSA plans to address the issues 
going forward, please provide answers to the following questions no 
later than April 26, 2016:
    1. How will TSA work to mitigate staffing shortages at Tucson 
        International Airport and other airports during periods of high 
        passenger volume?
    2. How does TSA expect passengers to enroll in the PreCheck program 
        when PreCheck lanes are often closed at times when travelers 
        need to utilize them, and how is TSA expanding and marketing 
        the PreCheck program?
    3. What are TSA's methods for responding to and adjudicating 
        checkpoint complaints at airports?
    4. What is the current size of TSA's National Deployment Force, and 
        how are they being utilized to handle higher passenger volumes?
    5. Will TSA be employing increased use of overtime hours in order 
        to bolster staffing at airport security checkpoints during 
        periods of high passenger volume?
    6. What are TSA's strategies for implementing efficiencies at the 
        checkpoint while continuing to build a culture of security 
        awareness and stringent adherence to protocol?
    7. How is TSA streamlining and enhancing its hiring practices in 
        order to retain a screening workforce of the highest caliber?
    Thank you for your attention to this matter and your timely 
response.
            Sincerely,
                                            Martha McSally,
                                                Member of Congress.

    Ms. McSally. Great. Thanks.
    Tomorrow, Mr. Katko's subcommittee is going to be holding a 
hearing bringing some of the representatives of airports. My 
CEO of Tucson Airport Authority will be there, which I 
appreciate. She participated in the roundtable that we had last 
week where we had a very fruitful and vigorous discussion on 
some of their concerns and ideas.
    A couple of things that we are seeing going on in a small 
airport like Tucson--people are paying the $85 to go through 
PreCheck. They are giving their biometric information to the 
Government. But then they are showing up at the airport and the 
PreCheck lane is closed. We have two terminals. On average, the 
PreCheck lane has only been open 5 hours a day total for the 2 
terminals, with really little to no flexibility.
    So this is a concern we are hearing really from around the 
country, that if people are going to spend the money and the 
time to go through it, the PreCheck lane needs to be open. Are 
you aware of this issue? Is there anything in the works to 
rectify this?
    Admiral Neffenger. Yes, I am aware of that issue. My goal 
is to get those PreCheck lanes open throughout the day so that 
they are available when passengers arrive. Some of that is a 
staffing issue and some of that is a scheduling issue. So 
this--the focus that we are putting now on daily hourly 
operations is showing us where we are having that problem.
    Some of that is just, you know, best practices across the 
system. Some of that is availability of people to go through 
that. In the absence of that, the other thing that we are doing 
is dramatically changing the way we move people through. So you 
move PreCheck people right to the front of the line, and you 
get them through in a PreCheck way, even if it is a standard 
line. So opening up the PreCheck lane or the line, even if you 
don't have enough people to open that lane at that moment.
    So you have to build enough capacity--build enough volume 
to justify pulling, you know, the bodies off to open a PreCheck 
lane. But this is--my goal is to make sure that if we are going 
to promise a service to people, that you can deliver that 
service across the system.
    Ms. McSally. Great. One of the themes of that roundtable, 
and I am sure we will hear it again tomorrow on the record, is 
the feeling by the airlines and the airport authorities that 
the lack of flexibility by the FSDs to work in partnership with 
the airlines and the airport authorities to make tactical 
decisions. They feel like there is a top-down approach coming 
from Washington, DC.
    In Tucson, this is even worse because we are part of this 
spoke operation where our FSD is in Phoenix. So even if you are 
giving flexibility to that person, the leader down in Tucson is 
still stuck with these top-down answers coming out of 
Washington, DC, and sometimes Phoenix.
    Are you willing to initiate or will it take an act of 
Congress? Are you willing to sort of relieve some of that and 
allow more bottom-up decision making so that the leader on the 
ground for TSA at that airport can make----
    Admiral Neffenger. Absolutely. In fact, that is the message 
I have been sending out consistently to my field leads. So I 
think--I go back to my military model. You know, if I am a 
field commander, I want--and I have resources, I know what my 
mission is, then I want to be able to do that to the best of my 
ability, and reach out as I need for additional help.
    Ms. McSally. Well, they are being told their hands are 
tied, and that they are being directed by Washington, DC, when 
the PreCheck lane can be open in Tucson.
    Admiral Neffenger. Well, I have new leadership now that 
isn't following that model.
    Ms. McSally. Okay.
    Admiral Neffenger. I have made it very clear that they do. 
I am checking on that to make sure that they are actually doing 
that.
    Ms. McSally. Right. Things like that shouldn't take an act 
of Congress, as you know.
    Admiral Neffenger. No, I mean, it took an act of me, and I 
said, ``Look, that is the way things have to happen.''
    Ms. McSally. Great. Thanks.
    Sorry, Mr. Chairman, for going over. Appreciate it.
    Chairman McCaul. No problem. Thank you.
    The Chair recognizes Mr. Keating.
    Mr. Keating. Thank you, Mr. Chairman.
    Admiral, thank you and your staff for helping us and 
providing feedback on a bill I introduced last month that 
already passed the committee in a bipartisan fashion regarding 
perimeter security and access control points. So, appreciate 
that, and your actions.
    Two things on the wait times. I have spoken with airport 
operators regarding the need to establish really a more formal 
process in which airport operators and carriers can share 
predictive data. You know, how many seats on a flight; where 
the flights are; and try and make that as live-time, as 
functional as possible.
    I wanted to know where you are on that, and how easily that 
can be done, given your personnel.
    No. 2, this is actually both of them, several Federal 
agencies utilize private explosive detection canine programs. 
We use this in the State Department. We use it in some of the 
most dangerous places in the world to help keep our people 
safe.
    It is my understanding that TSA hasn't expressed a 
willingness to turn to these type of programs, despite requests 
from airport operators. It is--we have had committee testimony 
where the airlines for--American Cargo Airlines Association 
have testified and expressed their support for that. The DHS 
Aviation Security Advisory Council voted 16 to 1 in support of 
these recommendations, moving towards a certification program.
    Can you tell us, given the minimal supply and the growing 
demand, what TSA can do to improve the situation, to 
incorporate more canine screening, whether or not there is an 
openness to these programs?
    Admiral Neffenger. Well, I am open to that program. In 
fact, I have had a number of conversations with people about 
private screening.
    Mr. Keating. Do you have the resources to move forward and 
expand that, then?
    Admiral Neffenger. Well, if by resources you mean, you 
know, kind of an oversight staff to pay attention to it, we 
have got--we have. I have the staff I have which manages the 
current canine program, and they are--they can work with 
private vendors who are interested.
    The challenge associated with that is we also have to work 
through local law enforcement. Because as you know, there has 
to be protocols established for if a dog finds something, what 
do I do now? So local law enforcement has a say in this as 
well. So airport-by-airport in the local law enforcement----
    Mr. Keating. So you think the inhibiting factor isn't money 
or the number of these resources available? It is only just 
coordinating with local law enforcement?
    Admiral Neffenger. No, No, I didn't mean to imply that that 
was an inhibiting factor. I think part of it is the willingness 
of TSA to explore this. So I am willing to do that and I have 
said that to----
    Mr. Keating. We are hearing from so many groups in front of 
this committee how valuable that would be; how it----
    Admiral Neffenger. I think we should explore the option.
    Mr. Keating [continuing]. And how it would improve safety.
    Admiral Neffenger. Exactly. I think we should explore the 
options, particularly when you are thinking about cargo 
screening and other types of things that are off airport 
property that has to be done. So there is a--I think there is 
value there.
    Mr. Keating. I mean, we have worked in this committee with 
Joint Terrorism Task Force, working with law enforcement. It 
would seem to me that we would be able to function with this as 
well, if we can provide any assistance or if the task force 
models are helpful.
    It is really important I think to upgrade that. I think 
they also serve as a very visible deterrent.
    Admiral Neffenger. There is no doubt with dogs.
    With respect to predictive data, it is relatively 
straightforward. We are doing that right now with the airlines. 
So the operational cell that I have got focused daily now, 
which I intend to become a permanent feature, includes airlines 
and airports to provide that predictive data. But in more real 
time, not just after the fact. I mean, it doesn't help me to 
find out what happened last week.
    It is much more important to find out what is coming and 
then to do something about it in near real time.
    Mr. Keating. Yes, if you could keep me informed in terms of 
the canine program, where that is, I would really appreciate 
that.
    Thank you for everything you are doing. Thank you for the 
success that you are doing under really tough situations.
    I yield back, Mr. Chairman.
    Chairman McCaul. The Chair recognizes Mr. Donovan.
    Mr. Donovan. Thank you, Chairman.
    Admiral, thank you for your testimony and your candidness 
with this committee.
    We saw with the shooting in LAX I guess last year, and what 
happened in Brussels, the vulnerability of the non-secure areas 
of our transportation hubs. Is that the total jurisdiction of, 
like, the State and local authorities? Or does TSA have a role 
in the non-secured areas in our airports?
    Admiral Neffenger. Well, we have a role in assisting with 
setting standards and expectations. My primary role is at the 
checkpoint, down in the baggage area, and then out in the 
secure areas of the airport. We work very closely with local 
law enforcement to patrol and guard the public areas of the 
airport as well.
    Mr. Donovan. I know last summer--it may have happened 
actually before your appointment--there was the covert testing 
at TSA and the vulnerabilities of things going through, and 
some changes have been made. Have you found that those changes 
have improved our ability to detect things going through our 
checkpoints that shouldn't? Is there data that supports that?
    Admiral Neffenger. There is. I won't get into details in an 
open setting, but I can tell you that our own internal testing 
tells us that we have improved significantly. We have a ways to 
go yet, but we are--it is significantly improved over--I think 
the measures that we took, the retraining that we did, and the 
changes in focus have helped considerably.
    I have recently met with the inspector general. They are 
about to kick off a new round of tests--specifically testing 
our improvement. That will take place over the course of the 
next few months. They don't tell you the exact schedule for 
obvious reasons. But I look forward to working with him and 
understanding what he is finding and if he is validating any of 
what we are finding.
    Mr. Donovan. Wonderful.
    My last question actually is, with your efforts to get more 
people on pre-screening and off the standard lines, does that 
just move the delay over to pre-screening?
    Admiral Neffenger. No, it actually dramatically improves 
the ability to move. You can move almost double the speed on a 
PreCheck line that we do. So for example, right now, even with 
the dramatically increased numbers that have enrolled in 
PreCheck, 92 percent across the entire system, 92 percent of 
people in PreCheck wait less than 5 minutes for screening. So 
that is a significant improvement.
    Mr. Donovan. With the increase of people going to 
prescreening, you think that standard would uphold?
    Admiral Neffenger. I do. Because we can now more 
consistently, to Congressman McSally's point, we can more 
consistently open the PreCheck lanes and open more of them. 
Because you need volume to justify keeping the lanes open and 
that volume is now giving me the ability to keep more lanes 
open.
    Mr. Donovan. Thank you very much, Admiral.
    Admiral Neffenger. Yes, sir.
    Mr. Donovan. I yield back the remainder of my time, 
Chairman.
    Chairman McCaul. Chair recognizes Mr. Richmond.
    Mr. Richmond. Thank you, Mr. Chairman. Thank you, Admiral. 
I represent Baton Rouge and New Orleans and New Orleans, one of 
our biggest economies is the tourism industry, which means our 
airport is vitally important. So if you are talking Mardi Gras, 
Jazz Fest or Essence Fest or any of the events, the last thing 
we want is people to come down and have a good time and then 
have a bad taste in their mouth because they waited in an 
airport line or they missed their flight. So specifically, do 
the FSDs have the ability to grant overtime if they need more 
employees?
    Admiral Neffenger. They do. I have pushed a lot of overtime 
out to the FSDs. You have got a great FSD down there, too, by 
the way.
    Mr. Richmond. We do. We have hardworking TSAs and 
unfortunately we had an incident last year.
    Admiral Neffenger. You did.
    Mr. Richmond. Where we had to use deadly force and it was 
done by the book.
    What about K-9 teams? Because that is another thing that 
they expressed. We had it for Jazz Fest. It worked tremendously 
well. So the question becomes, can we get a permanent one and 
as you expand your 10-point plan or implement it, where would 
we fall on the list?
    Admiral Neffenger. Well, I will get you the exact 
priorities on the list for the record. But I will tell you, I 
would like to expand our K-9--passenger screening K-9 program 
beyond what we currently have. So right now, I am--I pushed K-
9s to the largest airports where we are experiencing some of 
the biggest challenges. My goal and my plan is to backfill 
those as we can bring more K-9s on board. I will find out where 
New Orleans is on that priority list.
    Mr. Richmond. I have read and I know about your goal to 
increase PreCheck passengers. One idea that I think that, you 
know--let me just say off-hand. I am opposed to the baggage 
fees. I think it is abominable. The price of gas has gone down 
and been very low for the last year, so airline ticket prices 
have remained the same.
    I think baggage fees is just another way to dig in American 
people's pocket and make excessive money but at the same time I 
think that what it does is it pushes those carry-ons through 
our security checkpoints. Which means our margin of error, if 
it is 1 percent or .1 percent, now that we have millions and 
millions more bags because airlines are doing their fees, I 
think at some point I want to just prohibit them.
    But if we want to push people to PreCheck, why don't we 
just say anyone who has PreCheck, the airlines can't charge you 
baggage fees? That would drive people to go enroll in PreCheck 
and we get to not stick it to the airlines, but we get to help 
the American people.
    But do you think that the number of bags going through our 
checkpoints is problematic?
    Admiral Neffenger. There is a lot of pressure on the 
checkpoints. We see a lot of bags coming through the 
checkpoint. About 4 times at the checkpoint of what gets 
checked. So this is why we encourage the airlines to help 
enforce that 1+1 rule because every additional bag coming 
through the checkpoint is a potential slowdown to the 
processing of people through.
    Mr. Richmond. Because what I noticed, and probably many of 
the people on the committee since we travel so much, we will 
notice that once you get to the gate, when they make the 
announcements, most of them say that the flight is pretty full, 
we will complimentary check your bag.
    So you have had this backup at the checkpoint and once you 
get through the checkpoint and you get to the gate, they say, 
hey, how about we check your bags for you now for free. Well, 
if they are going to do that they might as well do it on the 
front end, alleviate some of your pressure and also help us 
protect the American people. So I really would hope that you 
look at that.
    Let me switch topics a little bit. I know that you are 
going out for bid on--you have a RFI out for your IT on your 
secure flight program. I would just ask that you look at using 
shared services with the National Finance Center, which 
already, I think, does your payroll and other things for you. 
They have great software development team, it is already a 
branch of Government. I think they can help you get your needs 
to market or they can service you a little bit faster than the 
process you are going to go in. I think they will save you a 
tremendous amount of money.
    So I would just ask that you all really entertain using a 
shared service with National Finance Center to develop the 
software for the Secure Flight program that you are looking 
for.
    Admiral Neffenger. We will take a look at that.
    Mr. Richmond. With that, Mr. Chairman, I will yield back.
    Chairman McCaul. Thank the gentleman. The Chair recognizes 
Mr. Carter.
    Mr. Carter. Thank you, Mr. Chairman. Mr. Neffenger, thank 
you for being here. Mr. Neffenger, as you know, I represent 
Georgia. Of course, Hartsfield-Jackson Airport, one of the 
busiest airport in the world, this is a major problem the 
backlog that we have there.
    In fact I just went out, stepped outside a few minutes ago 
to have a picture taken with some visitors from Georgia. They 
were telling me this morning, this morning, you know, one of 
them commented, I only had to wait 30 minutes in line.
    Well, you know, it is unacceptable what is happening here. 
I just want to make sure that we are on the same page here. At 
Hartsfield recently, they just opened up the south checkpoint 
and started using a new system, the radio frequency 
identification on the bins so that they can put their stuff in 
there and they don't have to load the bins. Hopefully that is 
going to help some.
    You and I have spoken before about privatization, and as 
you know, and full disclosure, I am really big on 
privatization. Atlanta and the bigger airports are indicating 
to us, at least to me, that it is beyond the scope of a 
bureaucracy to be able to do this. I just don't get a warm and 
fuzzy feeling that you are embracing privatization here.
    Congress passed the Screening Partnership Program. Tell me 
what you are doing to implement that. We need to get to a point 
where you are on the other side of the table. You are asking 
the questions and overseeing this as opposed to being here 
answering the question from us.
    Admiral Neffenger. We have made a lot of changes to 
streamline that process. I was concerned that it takes a long 
time because it has to go out on bid, it has to go out on 
contract and the like. I am--I have said repeatedly that the 
law allows for this, I will work with any airport that is 
interested.
    In fact, I have directed airports like Atlanta to go out 
and talk to San Francisco because that is the only large 
Category X airport that has a contracted screening force and we 
will continue to work with them. I think there are things that 
we can do to--we are somewhat hampered by the way the Federal 
acquisition rules work. Remember, that is a workforce that is 
contracted to the Federal Government, not----
    Mr. Carter. Hold on--I don't mean to interrupt you. But I 
want to know, you say you are hampered. I want to know how I 
can help you to become uninhampered, if that is a word.
    Admiral Neffenger. Well as I said, it is--we follow the 
contracting rules for--under the Federal Government contracting 
requirements. It is a contract to the Federal Government. So I 
want to make sure that it is fair and it is open competition 
and you have to give people the opportunity to participate in 
that. We will work with anybody who wants to do that.
    Mr. Carter. Well understand that I want to work with you so 
that we can streamline that process. I still don't get the 
feeling that you are embracing it. I want to know what you are 
doing to encourage it--to the privatization of it.
    Admiral Neffenger. Well, again, it is up to the airport to 
determine whether they want to do it. We advertise its 
availability. We make available information about it. There is 
a Screening Private Partnership office that manages that.
    What I can offer you is to bring the person who is running 
that office up to outline what has changed over the past year 
and what we do to make that information available to airports, 
if they are interested and inclined----
    Mr. Carter. Okay. A couple other things real quick. First 
of all, as you know, FLETC is in my district. That is where you 
do your training. I think it is a great facility, does a 
wonderful job of training. We still incorporate that, even in 
the private sector. I mean, they can still be trained down 
there. We----
    Admiral Neffenger. I train--I have trained the private 
screeners as well.
    Mr. Carter. Absolutely. Absolutely. So, you know, it is not 
as if they are not going to get the same kind of training that 
we currently get for the employees. It is just going to be 
management. It appears to me by the conversations that I have 
had with some of the smaller airports that that is where the 
problem is. That there is a void, a gap, if you will, between 
the local senior TSA reps in between the management up here in 
the District of Columbia, that they are not communicating.
    Can you speak to that?
    Admiral Neffenger. You mean the FSDs in the field and the--
--
    Mr. Carter. Yes.
    Admiral Neffenger. Well, I felt that the same thing. That 
is why I have made some leadership changes and some structural 
changes to the way we do it and I have pushed a lot of 
authority out to the FSDs. They already had that authority, in 
my opinion. They just needed to know that they could use that 
authority. I have been trying to drive less operations from 
headquarters, because you can't drive from headquarters. You 
got to provide guidance and resources.
    Mr. Carter. Absolutely. I am glad to hear you say that.
    Admiral Neffenger. Yes.
    Mr. Carter. But you know, and I--again, I feel like what is 
happening here is we are creating this giant bureaucracy that 
at some point we are not going to be able ever to break it 
down. Now is the time for us to start going more toward 
privatization, so that we don't get this giant bureaucracy that 
obviously is not performing to the level that we want it to 
perform to.
    You know, one of the first things they taught us when we 
got into the Georgia legislature was, when you are in a hole, 
stop digging. We need to stop digging, because it ain't working 
the way it is working now. So, I encourage you to look at this 
privatization and to push the privatization. That is the route 
that I would see us needing to go.
    Admiral Neffenger. Yes, sir.
    Mr. Carter. Thank you, Mr. Chairman, I yield back.
    Chairman McCaul. The Chair recognizes Mr. Hurd.
    Mr. Hurd. Thank you, Mr. Chairman. Admiral, appreciate you 
being here. I know it has been a long morning.
    I have some, couple of basic questions, and I love your 
comments on the philosophy of getting passengers through 
checkpoints quickly, versus security effectiveness and how you 
balance that.
    Admiral Neffenger. Oh, well, first and foremost, you have 
to be effective at what we do. We learned that lesson the hard 
way when the Inspector General report came out last year.
    So it was imperative that we refocused. This was not--I 
will say, not the fault of the front-line workforce. They were 
doing exactly what they were told to do, get people through the 
line fast. If you do that, you will get people through the line 
fast, but you might not do your job very well.
    So that was the first thing. But you still have to ensure 
that you do it as efficiently as possible. Those 2 things are 
not mutually exclusive in my mind. There are efficiencies that 
we can gain in the way we deploy our people, in the way we 
employ them and in the way they are managed.
    I think an awful lot of the work that I am doing is in 
really reforming and transforming the management piece of the 
organization, because that is where the greatest opportunity 
for fixing that is.
    So, I think we can do a lot to improve through-put. Then 
there is a technological piece to it as well. I--you know, TSA 
is still operating equipment that was operated for the past 30 
years in terms of--with the exception of some of the upgrades 
to the software and the X-ray machines, the basic system still 
is a manual system.
    So, there are things we can do that will dramatically 
improve our ability to process people more efficiently, while 
still doing our job really well.
    Mr. Hurd. Do copy. The next question, and I know this is 
about how TSA works with local--with individual airports. I 
know the answer is going to be ``it depends.'' All right. But 
are you getting the kind of support from airports when they 
build a new terminal? Are you getting the opportunity to 
provide input and guidance on how to design it in such a way 
that it would improve efficiencies of security?
    Are you also--do you get the kind of support--you know, you 
don't run the airports, right? I think folks forget that. Are 
you getting the kind of support from the airport personnel on 
non-security tasks that could be going on?
    I would just welcome your, kind-of, general thoughts on 
that?
    Admiral Neffenger. Well, thank you. With respect to the 
last point, we have gotten some great support from airlines and 
airports over the past few months to provide assistance for 
non-security-related duties. Everything from monitoring exit 
lanes to bin-running, to helping guide people into the 
appropriate checkpoints.
    So, I have been pleased with that. What I believe is that 
TSA needed to do a better job of engaging at the local level, 
airport-by-airport, as well as at the Federal. I think we have 
always had pretty good relations with the big associations, but 
it is on the ground at the individual airport where the 
difference is made.
    So, we have been working very hard at pushing our feet. We 
are going back to that comment about the FSDs and authorities, 
is to get them engaged with their local people, share with them 
their staffing models, share with them their current 
challenges, learn from each other. More importantly, find out 
when they have got plans to modernize or improve their 
infrastructure, because that is an opportunity for us to build 
in some new capability and some new space that would allow us 
to operate better.
    Mr. Hurd. Great. My last is a comment, not a question. I 
just want to say thank you for working with us on getting some 
TSA agents back into small airports in some of these small 
towns.
    Admiral Neffenger. Yes, sir.
    Mr. Hurd. I know we have been talking a lot about wait 
lines at big airports, but I am looking forward to flying back 
to Washington, DC, from Del Rio, Texas, in the next couple of 
weeks once that gets set up.
    So, I appreciate your willingness to work with us and 
making sure that the small-town airports and these small towns 
benefit from the economic advantages of having a functioning 
airport.
    So, thank you. Mr. Chairman, I yield back.
    Chairman McCaul. The Chair recognizes Mr. Walker.
    Mr. Walker. Thank you, Mr. Chairman. Admiral Neffenger, 
thank you for being here today.
    Earlier this week, Kelly Hoggan was removed from his post 
as head of the security operations. In another committee, a 
recent hearing--in fact, we talked that, you and I, and some of 
the questions there. We talked about the $90,000 bonuses as 
well.
    It is not where I want to stay or camp too much this 
morning, but I do want to ask a couple questions in regards. 
What is Mr. Hoggan's annual salary?
    Admiral Neffenger. He is an SES level, so his annual salary 
is, I believe, right around $180,000.
    Mr. Walker. Yes. I have got $181,000, so I think we are 
pretty close on that.
    Can you confirm if Mr. Hoggan is on paid administrative 
leave?
    Admiral Neffenger. He is currently on paid administrative 
leave, yes, sir.
    Mr. Walker. Okay. So, if my math in my head--that is about 
$500 a day. According to the DHS's administration lead policy 
of 2015--I am sure you are pretty familiar with that?
    Admiral Neffenger. Yes, sir.
    Mr. Walker. I would like to read it for the record, if that 
is okay, Mr. Chairman?
    Chairman McCaul. Without objection, so ordered.
    Mr. Walker. The policy states managers must decide whether 
the continued presence of the employee in the work place may 
pose a threat to the employee or others, result in loss or 
damage to Government property or otherwise jeopardize 
legitimate Government interests. Where such a risk does not 
exist, the employee should remain in the workplace.
    So Neffenger, in the case of Mr. Hoggan, which of these 
instances applies?
    Admiral Neffenger. Mr. Hoggan is currently--we are 
resolving this, as you know. I needed--I wanted to make a 
leadership change. I made that leadership change. It was my 
considered opinion that I needed a new direction going forward.
    We are working to process with respect to Mr. Hoggan, and I 
will work that process very rapidly.
    Mr. Walker. So, I am not sure that--let me rephrase the 
question, here. Why is it that you have made the choice to put 
him on paid administrative leave when there doesn't seem to be 
any threat to the organization?
    Admiral Neffenger. It is a very short-term decision, so 
while the process--it allows us to make the process for what 
the next steps are with that, so I can move forward with the 
new direction that I need to ensure we meet the challenges 
coming forward.
    Mr. Walker. Sure. I want to respect that. So, when you say 
short-term, can you give us a ballpark, an idea? What does that 
mean?
    Admiral Neffenger. I intend to determine that this week.
    Mr. Walker. Okay. All right. I want to go back also, where 
there are tough places to dig out, that is--there are places, 
but also where I want to commend you.
    In the past, the TSA has had involuntary or voluntary 
moving expenses in the neighborhood of $200,000. I believe the 
one gentleman testified, from Maine, that he had $100,000 
relocation expense.
    Is it my recollection that, if my memory serves me correct, 
that you are no longer operating under that particular mind set 
or those procedures, is that correct?
    Admiral Neffenger. Oh, I discontinued that practice.
    Mr. Walker. Okay.
    Admiral Neffenger. I have capped relocation expenses.
    Mr. Walker. All right, and I appreciate you doing that. Let 
me follow up with one more question here on Mr. Hoggan.
    In the same memo which announced Mr. Hoggan was no longer 
assistant administrator, you announced a new chief of 
operations who will direct Nation-wide screening operations and 
oversee daily allocation of forces and capabilities.
    According to your website, TSA's assistant administrator 
for security operations is responsible for, ``Airport 
checkpoint and baggage screening operations.'' Is that true? Is 
that a fair statement?
    Admiral Neffenger. Yes, sir.
    Mr. Walker. Okay. All right. So, in concluding with Mr. 
Hoggan before I move on to something else here, are you at a 
place where that you can reveal any long-term plans with Mr. 
Hoggan at this point?
    Admiral Neffenger. I cannot at this point, no sir.
    Mr. Walker. Okay. All right. Well, we will certainly 
respect that.
    I am going to--a very general question. I have got a 
minute-and-a-half left, and I want to give you an opportunity. 
The overall culture of the TSA has not been where the American 
people expect it, where Congress should expect it, where the 
taxpayers should expect it.
    Briefly, can you tell me, philosophically perspective, why 
do you feel like that you are being able to turn this tide? We 
have heard several Members talk about it today, that you are 
undergoing an impossible--or trying to take on an impossible 
task.
    That doesn't encourage you much today. Obviously, with your 
background, you would have not taken on this position unless 
you felt like there were improvements that could be made and 
things that could be done. You can share a couple specifics if 
you would like, but I would like to hear an overall general 
purview of why you think that you are able to turn this ship in 
the right direction?
    Admiral Neffenger. Well, let me start just by talking about 
our workforce.
    We have a really tremendous workforce. I don't just say 
that lightly. I have been out meeting with them in the now 10 
months-plus that I have been in the job. I go out to the front 
lines.
    We have people who are--they come from all walks of life. 
There are people with graduate degrees, with undergraduate, 
some high school graduates. There are people who are former 
military, people in their second careers.
    So, what gives me--what gave me immediate hope was seeing 
not only the passion and the dedication of that workforce, but 
their resilience.
    You know, I think--I really believe they have one of the 
toughest jobs in Government. I mean, they--the average screener 
at a large airport sees more than 13,000 individuals every day. 
They have to remain professional, and they have to remain 
committed. These are true public servants.
    That said, I think they needed a clear sense of mission, a 
clear focus from leadership on mission. They needed that focus 
to stay constant and straightforward. I think about my time in 
the military. What is it that makes the military able to take 
people from all walks of life and focus them on their duties 
and have the kind of response that we have that has created the 
best military in the world? It is a clear sense of purpose and 
mission, a reminder of that, an engagement in that across the 
workforce.
    So I was surprised to discover when I came to TSA that 
there was no--there was no true formal training program across 
the entire organization at any level of the organization. To 
me, that is foundational to creating culture and to creating 
engagement. So it was very important. I was really pleased that 
Congress agreed that founding a TSA Academy for the first time 
ever was a very important first step.
    It is a first step. I wanted to get that front-line 
workforce back engaged and connected in a way that they hadn't 
been before. I mean, we were just training people all over the 
country, individuals inconsistently. So now, we have a 
consistent training program. You need to do that across the 
entire workforce.
    So I started for the first time ever this year a rising 
leader development program which looks at all of our mid-grade 
employees and begins to teach them about what it means to be in 
charge and leading.
    So we need to do leadership training, we need to do skills 
training, and we need to do it consistently. The reason I 
believe the ship can turn is I look to where the United States 
military was post-Vietnam, and everybody said it was a broken 
organization. It turned itself around. How? By doing exactly 
those things: Focusing on the mission, reengaging with the 
workforce, going back to fundamentals, and training across the 
board.
    I believe that is the answer. It doesn't happen overnight, 
but we are already seeing some good signs with some of the new 
people that have been coming out of the academy. There is 
already this sense of passion. I get--I should share with you 
some of the e-mails I am getting from----
    Mr. Walker. I will just say my time is expired. So it will 
be up to the Chairman to extend that. But I do appreciate your 
answers.
    Mr. Chairman, I yield back.
    Chairman McCaul. The Chair recognizes Mr. Ratcliffe.
    Mr. Ratcliffe. I thank the Chair.
    Administrator Neffenger, thank you for being here today. 
Over the course of the last years, you know, we have had 
hearings on this committee on security breaches caused by 
improper screening of employees of airports and airlines and 
vendors, we have had hearings about the agency's trouble with 
excessive waste and cost and some security failures, 
specifically a hearing on the DHS IG's investigation that 
showed that we had as many as 95 percent of some banned 
security items being able to get through and with aviation 
workers with links to terrorism not being disclosed.
    I say all that not to lay blame with you, but to highlight 
that you were brought in at a very challenging time at the TSA. 
Clearly, there is a lot of work to be done here and I do want 
to say that I have noticed that you have taken proactive steps 
to try and rectify some of these problems. But now today, we 
have got another problem to talk about.
    These long lines are not just an inconvenience to 
travelers, they do pose a security risk, having hundreds of 
passengers standing close together in an unsecure area. We saw 
what happened in Brussels with respect to that and I know that 
the TSA is working every day to try and prevent those types of 
things that happened in Brussels from happening here.
    But I do want to follow up in this particular area because 
I know you have attributed some of the long lines to personnel 
departure at TSA in previous years and that the agency has not 
yet replaced some of those folks. I know that through the 
Appropriations Committee, we repurposed--Congress has 
repurposed some $30 million, $34 million to allow for the 
hiring of additional TSA agents.
    But I have some concerns about the allocation of additional 
TSA agents. It is not just about getting screeners to the 
airports, but about allocating those resources strategically to 
alleviate some of the long lines that we are seeing right now. 
To that point, I know there was a transportation security 
roundtable last week where stakeholders repeatedly said that 
they thought that the staffing model at the TSA was 
fundamentally flawed.
    Now, no one wants to sacrifice security simply to lower 
wait times at the airport, but if you or if we can improve 
efficiency of security processes without sacrificing safety, I 
know that is something that we all want to get to.
    So I have heard in the past that TSA had the capability to 
schedule its workforce to match up with the airline flight 
schedules and passenger load, but that it dropped that and 
instead, now uses an electronic time and attendance system that 
has a lot of--requires a lot of manual changes to deal with 
employees on leave and irregular operations and weather-related 
delays. First of all, is that correct?
    Admiral Neffenger. Well, we do use an electric time and 
attendance system, but we still have the flexibility to meet 
demand. We just--I don't think we did it very well.
    Mr. Ratcliffe. Okay. Well, are you--can you tell me are you 
looking at any commercial technology solutions that would align 
workforce needs with airline and airport passenger flow? If so, 
when would that be deployed?
    Admiral Neffenger. Well, what we have done immediately is 
we are working with the airlines directly and the airports. We 
have opened up the full staffing model to the airports--at the 
airlines in particular. About 2 months ago we had all of the 
major airlines in at a very senior level to say here it is. We 
are airport by airport, where everybody--anybody wants to look 
it, looking at that staffing model as well.
    I think that there is work to be done on the staffing 
model. It needs to be flexible and agile enough to meet the 
demand as it arrives. What I am learning is that the airlines 
are exceptionally good at predicting and responding to their 
peak periods. We can learn a lot from them and they are helping 
us adjust our staffing model. We even saw in Chicago a couple 
of the key adjustments that we made right after that, you know, 
day that we had all the challenges, it dramatically decreased 
the line waits.
    Mr. Ratcliffe. Well, I am glad to hear that you are 
engaging the airports and the airlines in that regard. To that 
point about the staffing model, are you taking into account the 
different layout structures of different airports? So for 
example, the DFW airport in my home State of Texas has 15 
screening check points, where I know the Denver Airport only 
has 3. Obviously, that makes a big difference in terms of 
staffing requirements. Is that something that is being taken 
into account?
    Admiral Neffenger. It is, and you have to do that because 
what you say applies the real challenges. Some airports are big 
and open and have lots of opportunity to run efficiently, other 
airports are very constrained by space and you have multiple 
small checkpoints distributed across the airport. So you have 
to think very differently about managing those more constrained 
airports than you do a large open airport.
    Mr. Ratcliffe. Well, on that same vein, and my time is 
expired, but I do want to ask you this question as well: Do you 
think that Federal security directors located at the airports 
should have more flexibility in determining the local needs of 
the airports where they are stationed?
    Admiral Neffenger. Well, I have given them complete 
flexibility. That said, it is important to note that I only 
have so much staff to go around, so if they come to me and say, 
``I want 500 more people,'' I mean, they--I have got to work 
with them to get there. But within the resources that they 
currently have allocated to them, they have the ability to flex 
those resources however they need to, working with the local 
airports and airlines. Then if they need more, then they need 
to--they have the ability to come to me and say, ``Look, I 
think I need more and here is what I need.''
    Mr. Ratcliffe. Thanks very much for being here today, and 
thank you for your candor in your testimony and answering 
questions today.
    With that, I yield back.
    Chairman McCaul. I think the gentleman.
    Just want to remind Members that tomorrow morning at 9 
a.m., the Subcommittee on Transportation will be holding a 
hearing with local--with airline authorities, airport 
authorities, and airlines and look forward to that perspective 
tomorrow.
    Members of the committee may have additional questions. We 
would ask that you respond in writing. The Ranking Member is 
recognized.
    Mr. Thompson. Thank you, Mr. Chairman. I would just like 
unanimous consent to enter into the record a letter to 
Administrator Neffenger dated April 19, 2016.
    Chairman McCaul. Without objection, so ordered.
    [The information follows:]
  Letter Submitted for the Record by Ranking Member Bennie G. Thompson
                                    April 19, 2016.
The Honorable Peter Neffenger,
Administrator, Transportation Security Administration, U.S. Department 
        of Homeland Security, 601 12th Street South, Arlington, VA 
        22202.
Dear Administrator Neffenger: I am writing to express the serious 
concerns I have regarding staffing issues at airports throughout our 
nation. One recurring complaint I hear from airport officials is 
current staffing allocation models do not adequately correspond with 
the airport's needs.
    According to a recent press release from the Transportation 
Security Administration, many airports around the nation are 
experiencing substantial growth in checkpoint volume. During peak times 
passengers are experiencing significant delays. Certain airports have 
the capacity to operate multiple lanes within security checkpoint 
areas; however, starting shortages often leave the lanes unused, and as 
a result, the queue grows and wait times increase. I am concerned the 
inability to take advantage of airports' infrastructure may create an 
additional vulnerability by not having individuals screened in unused 
lanes due to staffing shortages.
    Understanding we are working in a time where budgets are 
constrained, I realize additional funds will be needed to provide more 
staffing at airports. However, I believe a thorough look must be taken 
at the current staffing allocation model and standard operating 
procedures to ascertain if any room exists where efficiencies can be 
achieved.
    One possibility for flexibility and efficiencies could be achieved 
through the Screening of Passengers by Observation Techniques (SPOT) 
program. In May 2010, the Government Accountability Office (GAO) issued 
a report on TSA's efforts to validate this program.\1\ GAO analyzed (1) 
the extent to which TSA validated the SPOT program before wide-scale 
deployment, (2) implementation challenges, and (3) the extent to which 
TSA measures SPOT's effect on aviation security. GAO found TSA deployed 
SPOT nation-wide without first validating the scientific basis for 
identifying suspicious passengers in an airport environment; TSA was 
experiencing implementation challenges, including not fully utilizing 
the resources it has available to systematically collect and analyze 
information obtained by Behavior Detection Officers (BDO) on passengers 
who may pose a threat to the aviation system; and the agency lacked 
outcome-oriented measures to evaluate the program's progress toward 
reaching its goals.
---------------------------------------------------------------------------
    \1\ GAO-10-763: Aviation Security--Efforts to Validate TSA's 
Passenger Screening Behavior Detection Program Underway, but 
Opportunities Exist to Strengthen Validation and Address Operational 
Challenges.
---------------------------------------------------------------------------
    In November 2013, the Government Accountability Office made public 
a report recommending TSA limit future funding for TSA's SPOT program 
and suggested Congress consider the lack of scientific validation for 
the program when providing funding for the agency.\2\ To my knowledge, 
TSA has not scientifically validated the usage of BDOs. Given these 
facts, I believe you should strongly consider the possibility of 
reallocating these individuals to perform other screening functions 
within the staffing allocation model.
---------------------------------------------------------------------------
    \2\ GAO-14-159: Aviation Security: TSA Should Limit future Funding 
for Behavior Detection Activities.
---------------------------------------------------------------------------
    I look forward to working with you to identify and address this 
important issue. If you have any questions or concerns, please contact 
Hope Goins, Chief Counsel for Oversight.
            Thank you,
                                        Bennie G. Thompson,
                                                    Ranking Member.

    Chairman McCaul. Pursuant to committee rule 7(c), the 
hearing record will be open for 10 days for statements and 
questions from Members.
    Admiral, thank you for being here today. I know you are a 
newcomer to this job and certainly, the challenges are great. 
But I think you are well-equipped to solve those and we look 
forward to working with you to solve these problems for the 
Nation, and we thank you for your service.
    Without objection, the committee stands adjourned.
    [Whereupon, at 12:09 p.m., the committee was adjourned.]



                            A P P E N D I X

                              ----------                              

       Questions From Hon. Martha McSally for Peter V. Neffenger
    Question 1. What law gives the Secret Service the ability to call 
in TSA's Visible Intermodal Prevention and Response, or VIPR, teams for 
additional security presence at events such as campaign rallies, 
political party conventions, NFL games, NASCAR races, and concerts?
    Answer. TSA's Visible Intermodal Prevention and Response (VIPR) 
teams often provide support to the United States Secret Service for 
events designated as National Special Security Events (NSSEs), such as 
Presidential Inaugurations, and the Republican and Democratic National 
Conventions. This assistance is rendered pursuant to the Secret 
Service's authority to plan, coordinate, and implement security 
operations at special events of National significance, 18 U.S.C.  
3056(e), TSA's authority to provide personnel and services to other 
Federal agencies, 49 U.S.C.  114(m), and TSA's authority to conduct 
VIPR missions to augment the security of any mode of transportation, 6 
U.S.C.  1112.
    VIPR operations at transportation venues may coincide with events 
given a Special Event Assessment Rating (SEAR) by the Department of 
Homeland Security, with a designated Federal Coordinator to lead the 
Federal Government's operational plans to provide security for the 
event. These VIPR deployments are made under the program's own 
authority, 6 U.S.C.  1112, which specifically authorizes the 
development of VIPR teams to augment security in any mode of 
transportation at any location in the United States. This authority 
adds greater specificity to the authority granted to TSA by U.S.C.  
114(d), which establishes TSA's general authority and responsibility 
for security in all modes of transportation.
    Whether an NSSE or SEAR event, the Secret Service or other 
designated Federal Coordinators are aware of TSA's VIPR capability and 
may request that VIPR operations be part of the overall security plans 
for the areas associated with those events.
    Question 2a. How many times have the VIPR teams been deployed to 
events described in question No. 1? Please break down the number of 
each of the previously-mentioned events VIPR teams have been deployed 
to.
    Answer. During fiscal year 2016, VIPR teams have or will be 
deployed to transportation locations in support of 5 NSSE and to 
augment security at transportation venues associated with 15 highly-
rated SEAR events. The NSSEs include the State of the Union Address, 
Nuclear Security Summit, the Republican National Convention, the 
Democratic National Convention, and a portion of United Nations General 
Assembly (UNGA). The highly-rated SEAR events include the remainder of 
the UNGA, the Rose Bowl Parade and Game, Super Bowl 50 (San Francisco 
Bay Area), the New York City, Chicago and Boston Marathons, Fourth of 
July celebrations in Washington, DC, Boston, and Chicago, the 
Indianapolis 500, the Papal Southern Border visit (El Paso, TX), the 
Thanksgiving Day Parade (New York City), the Times Square New Year's 
Eve celebration, and the National Museum of African American History 
and Culture Dedication (Washington, DC).
    Question 2b. Has there been security operations conducted by VIPR 
teams at any private events?
    Answer. TSA has not deployed VIPR teams to private events.
    Question 2c. Does TSA have the legal authority to deny this 
request?
    Question 2d. If not, do you want the authority to be able to do so?
    Answer. TSA is not required by law to deploy VIPR teams in support 
of NSSE or SEAR events. However, every attempt is typically made to 
utilize the VIPR teams to mitigate terrorist risk at transportation 
locations associated with the events.
    Question 3a. How many VIPR teams does the TSA currently have?
    Answer. The Transportation Security Administration (TSA) has 31 
Visible Intermodal Prevention and Response (VIPR) teams based in 20 
locations Nation-wide.
    Question 3b. How many TSA agents make up a VIPR team?
    Answer. Basic VIPR teams are composed of 1 Supervisory Federal Air 
Marshal (SFAM), 6 Federal Air Marshals (FAM), 2-4 Behavior Detection 
Officers, 1 Transportation Security Inspector--Aviation, 1 
Transportation Security Inspector--Surface, and 1 Transportation 
Security Specialist--Explosives. Some locations include additional 
teams of 1 SFAM and 6 FAMs.
    Question 3c. Are there Federal Air Marshals who serve on the VIPR 
teams?
    Answer. The appropriation for the VIPR Program, which is separate 
from the appropriation for the Federal Air Marshal Service, supports 
227 positions for SFAMs and FAMs who serve on the VIPR teams or with 
the VIPR Program office.
    Question 4a. Much of TSA's security expenses are paid for through 
the Passenger Fee, also known as the September 11 Security Fee.
    How are the services provided by VIPR team paid for?
    Answer. TSA's VIPR team services are funded in the current fiscal 
year in the Surface Appropriation.
    Question 4b. Does the Passenger fee fund VIPR teams in any way?
    Answer. Passenger fees do not fund VIPR teams as the Passenger Fee 
offsets appropriated resources in the Aviation Appropriation.
    Question 4c. Have funds collected through TSA PreCheck fees ever 
funded any of these operations?
    Answer. TSA PreCheck fees to do not fund VIPR services, as this 
would be an unauthorized use of those credentialing fee collections.

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
